<html>
<title> - THE LAST LINE OF DEFENSE: FEDERAL, STATE, AND LOCAL EFFORTS TO PREVENT NUCLEAR AND RADIOLOGICAL TERRORISM WITHIN THE UNITED STATES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
THE LAST LINE OF DEFENSE: FEDERAL, STATE, AND LOCAL EFFORTS TO PREVENT 
      NUCLEAR AND RADIOLOGICAL TERRORISM WITHIN THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2011

                               __________

                           Serial No. 112-40

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
72-542                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dabdaab59ab9afa9aeb2bfb6aaf4b9b5b7f4">[email&#160;protected]</a>  



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                    Alan Carroll, Subcommittee Clerk
                  Vacancy, Minority Subcommittee Lead


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     1
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4

                               Witnesses

Mr. Warren M. Stern, Director, Domestic Nuclear Detection Office, 
  Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Carl S. Pavetto, Deputy Associate Administrator, Office of 
  Emergency Operations, National Nuclear Security Administration, 
  Department of Energy:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Mr. Richard Daddario, Deputy Commissioner for Counterterrorism, 
  New York City Police Department:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Mark Perez, Homeland Security Advisor, Florida Department of 
  Law Enforcement:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Mr. David C. Maurer, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................    25
  Prepared Statement.............................................    26

                                Appendix

Questions From Chairman Daniel E. Lungren........................    41


THE LAST LINE OF DEFENSE: FEDERAL, STATE, AND LOCAL EFFORTS TO PREVENT 
      NUCLEAR AND RADIOLOGICAL TERRORISM WITHIN THE UNITED STATES

                              ----------                              


                         Tuesday, July 26, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:11 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel E. Lungren 
[Chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Marino, Clarke, 
Richardson, Richmond, and Keating.
    Mr. Lungren. Committee on Homeland Security Subcommittee on 
Cybersecurity, Infrastructure Protection, and Security 
Technologies will come to order. The subcommittee is meeting 
today to examine Federal, State, and local efforts to prevent 
radiological and nuclear terrorism within the United States.
    I would recognize myself for an opening statement. I 
understand the Ranking Member will be here shortly. But with 
the permission of the Minority side, we are going to go forward 
at this time.
    The Chairman is very pleased to have this hearing today. We 
will have an opportunity for Members to ask questions after we 
have had an opportunity to hear from our panelists.
    The subject matter is a very serious one. The detonation of 
a nuclear radiological device in a U.S. city is one of my 
greatest fears. It would be a catastrophic event in the truest 
sense of the word, causing enormous death and destruction, as 
well as economic disruption.
    Since 9/11 there is heightened concern the terrorist may 
try to smuggle a radiological or nuclear materials or a nuclear 
weapon into the United States, or acquire such materials within 
our country. If terrorists smuggle nuclear weapons or materials 
into the United States, there is no doubt they would attempt to 
use them either to make an improvised nuclear device or a 
radiological dispersal device or dirty bomb. The detonation of 
such a device in an urban area could cause a tremendous number 
of deaths, along with the destruction of long-term 
contamination of buildings and critical infrastructure.
    In 2005 the President called for the establishment of the 
Domestic Nuclear Detection Office in the Department of Homeland 
Security. I responded by codifying this office in the SAFE Port 
Act of 2006, which I introduced with then-Congresswoman Jane 
Harman to address terrorist threats at our ports of entry.
    The mission of the Domestic Nuclear Detection Office was to 
improve the Nation's capability to detect unauthorized attempts 
to import, develop, or transport nuclear or radiological 
materials for use against our Nation. DNDO was also directed to 
develop in coordination with the Departments of Defense, 
Energy, and State, and enhance global nuclear detection system 
of radiation detection equipment and interdiction activities. 
This system is called the Global Nuclear Detection 
Architecture.
    I want to recognize the outstanding effort of Director 
Stern in marshaling the first-ever strategic plan for the 
Global Nuclear Detection Architecture through the very 
difficult interagency approval process. This office is 
responsible for implementing the domestic portion of this 
architecture at the U.S. border, and within the United States, 
including the efforts of Federal, State, and local governments. 
It is also responsible for developing and acquiring radiation 
detection equipment to support the domestic efforts of DHS and 
other Federal agencies.
    Our hearing today will examine how our Nation's domestic 
defenses under the Global Nuclear Detection Architecture will 
detect and prevent such a nuclear event, and whether there are 
Federal, State, and local gaps in the architecture.
    Since it was established, this office has been examining 
nuclear detection strategies along the usual pathways: Air, 
land, and sea, for smuggling radiological or nuclear material. 
Through these studies the office concluded that potential 
smuggling pathways outside of traditional ports of entry, where 
U.S. Government efforts have been focused, do represent 
critical gaps in existing nuclear detection strategy. These 
gaps include land, border areas between ports of entry, 
international general aviation and small maritime crafts such 
as recreational boats and commercial fishing vessels.
    Reliable technology is essential to the overall success of 
the Global Nuclear Detection Architecture. Unfortunately, after 
5 years of development, testing, and expense, we will be told 
this morning the DNDO's premier, next generation radiation 
detection technology, the Advanced Spectroscopic Portal Monitor 
Program has been terminated. The APS program started well 
before Director Stern took office, has been very costly 
failure, evidently, and left the office without the improved 
radiation detection equipment needed to enhance the domestic 
portion of the Global Nuclear Detection Architecture.
    We look forward to hearing from our witnesses this morning 
on how they will implement the domestic detection portion on 
the GNDA, address identified gaps in the architecture--excuse 
me--and what technology the office will pursue to replace ASP.
    The gentlelady from New York is here. We will have an 
opportunity for her opening statement.
    At this time I would ask for unanimous consent to enter 
State of California's testimony into the record, and their 
radiological nuclear detection strategy and guide. Without 
objection, so ordered.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    All Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statements of Ranking Member Clarke and Ranking Member 
Thompson follow:]

         Prepared Statement of Ranking Member Yvette D. Clarke
                             July 26, 2011

    Mr. Chairman, thank you for holding this hearing to discuss 
developments in the Global Nuclear Detection Architecture.
    The enormous devastation that would result if terrorists use a 
nuclear weapon or nuclear materials successfully in a terrorist act 
requires us to do all we can to prevent them from entering or moving 
through the United States.
    The detection of special nuclear materials being smuggled or 
otherwise transported into or through the United States is the main 
mission of the Domestic Nuclear Detection Office (DNDO), and it has a 
further function in the development of the Global Nuclear Detection 
Architecture. DNDO also plays a role in nuclear forensics and security 
of radiological materials.
    DNDO is one of the major directorates within the Department, and 
the two key projects in the nuclear detection area are the deployment 
of current generation Radiation Portal Monitors (RPM) and the 
development of the next generations of detection devices. I understand 
we are going to hear some new developments in today's testimony from 
Mr. Stern, especially concerning the ASP program.
    At the end of March of this year, DNDO met with its interagency 
partners in the Department of Homeland Security and the Office of 
National Intelligence, the Nuclear Regulatory Commission, and the 
Departments of Defense, Energy, Justice, and State, to conduct a joint 
review of the performance goals identified in the Global Nuclear 
Detection Architecture Strategic Plan.
    I commend Director Stern, for his energetic efforts to produce the 
GNDA Strategy by the end of 2010, and for moving quickly on the Joint 
Annual Interagency Review that was delivered to us just a few weeks 
ago.
    It was obvious we needed a strategy, and this subcommittee is glad 
DNDO was able to put the very complex Interagency Review together 
quickly and cooperatively.
    DNDO now has responsibility for implementing the domestic portion 
of the plan, and I am anxious to see progress on a rubber-meets-the-
road plan.
    Additionally, I have noted that DNDO has revisited some past 
assumptions that guided development of a global nuclear detection 
strategy--particularly assumptions related to threat intelligence--
resulting in the concept that immobility is not a desirable 
characteristic among nuclear and radiological detection devices.
    It is important that this plan anticipate a new focus on State and 
local resources, which become critical to providing ``surge'' 
capabilities in specific regions.
    I understand that part of what we will hear today will give us 
insight into this concept of ``surging large numbers of people and 
devices,'' and communicating and synthesizing information very rapidly 
in detecting nuclear material or weapons, and even more importantly, 
that the Architecture Strategy involves reliance on a massive numbers 
of State and local officials to address nuclear or radiological 
threats.
    My concern is how do we plan for a complex system like this when we 
are anticipating a billion-dollar cut in the Department's budget, which 
will drastically reduce the capabilities of State and local 
authorities, who depend heavily on DHS grants, and are already stressed 
under their own considerable State and local workloads.
    I will be listening carefully to today's testimony for any 
indication that planning for the GNDA is taking into consideration the 
very real possibility that huge budget cuts proposed in this year's 
appropriations would be approved in the House of Representatives.
    Agencies, and especially DNDO, must be fully aware of what 
implementation goals would look like under these proposed draconian 
cuts to our National nuclear detection apparatus.
    In conclusion, the production of the GNDA Strategic Plan has 
afforded Members of the subcommittee and DHS leadership a new 
opportunity to look at the ways DNDO could best fulfill its mission.
    In order to prevent the unthinkable, we must deploy the best 
technology, employ the best people, and do the best planning. I repeat, 
in these times of severe budget cutbacks, our planning must reflect how 
we propose to accomplish our National security goals in nuclear 
detection with harshly restricted assistance to our State and local 
partners.
    Thank you, Mr. Chairman, and I yield back.
                                 ______
                                 
        Prepared Statement of Ranking Member Bennie G. Thompson
                             July 26, 2011

    Thank you, Mr. Chairman, for holding this hearing on the 
development of the Global Nuclear Detection Architecture.
    I am pleased to see our witnesses today representing the Federal 
components of this program, sitting next to the State and local folks 
who will have responsibility for the day-to-day procedures of this 
nuclear detection program.
    We all know that our nuclear detection strategy and equipment at 
the time of the 9/11 attacks was limited in its capability.
    Radiation detectors could detect radiation but could not identify 
isotopes.
    Radiographic equipment could reveal dense objects, but it would be 
difficult to pick out a small piece of Special Nuclear Material (SNM).
    As technologies become more capable they can plug gaps in the 
current architecture. For example, remote detection might offer a way 
to monitor choke points in the United States that terrorists might pass 
through in transporting weapons.
    But we have to address more gaps in this portfolio. For example: 
Several systems use helium-3 tubes for neutron detection, yet the 
supply is limited.
    Other gaps we need to fill include sensors that can detect Special 
Nuclear Materials at long range, and sensors that can operate in 
isolated areas.
    Systems now under development have the potential to reduce false 
positives, speed the flow of commerce, and reduce false negatives--all 
of which improve security.
    Congress has appropriated billions of dollars to deploy available 
systems, and to support R&D on advanced technologies.
    These refinements can make future technologies more effective, and 
has created an R&D pipeline that is intended to generate a steady 
stream of new technologies and systems.
    But the engine of this pipeline is proper testing and certification 
of these cutting-edge technologies. We have seen too many reports about 
detection technologies being deployed without proper testing and 
certification.
    This committee needs to know how DNDO's Global Architecture will 
relate to the Department's R&D process and any subsequent deployment of 
new technologies.
    It is imperative that the Secretary makes sure there is no more 
wasted money spent on devices that cannot be tested and certified to 
keep our citizens safe.
    However, given the billion-dollar cut to DHS's budget being 
considered in this year's appropriations, an emphasis must also be 
placed on planning for the worst.
    The hundreds of millions of dollars in cuts to grants for State and 
local authorities will, without a doubt, affect their ability to fully 
participate in the nuclear detection architecture and respond 
accordingly.
    Threats from terrorism persist and continue to evolve, and our 
nuclear detection architecture must reflect flexibility and the ability 
to respond quickly in its capabilities.
    Mr. Chairman, I look forward to today's testimony, and I yield 
back.

    Mr. Lungren. We are pleased to have a very distinguished 
panel of witnesses before us on this important topic.
    Warren Stern, who was appointed by the President to lead 
the Department of Homeland Security Domestic Nuclear Detection 
Office in August 2010. In this position he is responsible for 
countering nuclear and radiological terrorism, as well as 
detecting nuclear and radiological threats and advancing 
Federal capabilities for nuclear forensics.
    Prior to joining the office, Mr. Stern served as the head 
of the International Atomic Energy Agency's Instant and 
Emergency Center from August 2006 to March 2010. He began his 
career in 1985 at the Central Intelligence Agency, then serving 
as the senior technical advisor to the U.S. Arms Control and 
Disarmament Agency. Later served in the office of Senator 
Hillary Clinton as the Department of State's senior coordinator 
for nuclear safety and deputy director of the Office of Nuclear 
Energy, Safety, and Security.
    Carl Pavetto serves as deputy associate administrator for 
the Emergency Operations at the Department of Energy National 
Nuclear Security Administration.
    Prior to current position he spent 20 years in Federal 
service at the United States Department of the Interior 
National Oceanographic and Atmospheric Administration, United 
States Army, and United States Environmental Protection Agency. 
In addition to his Federal Governmental experience he has 
served as bureau chief of the Connecticut Department of 
Environmental Protection where he was in charge of air 
pollution and radiation control programs.
    Richard Daddario, a former assistant United States attorney 
is New York City Police Department's deputy commissioner for 
counterterrorism. Mr. Daddario is responsible for the NYPD's 
Joint Terrorism Taskforce, the department's counterterrorism 
training and programs, including lower Manhattan and midtown 
Manhattan security initiatives and the Department of Homeland 
Security's funded, Securing the Cities initiative. As assistant 
United States attorney for the southern district of New York 
since 1996, Mr. Daddario was the supervising or lead 
prosecutor, investigation prosecution to various crimes 
including domestic and international terrorism and terrorists' 
financing cases.
    Prior to joining the U.S. Justice Department, Mr. Daddario 
served as the first deputy commissioner of the New York City 
Department of Investigation. Before that as chief counsel at 
the New York State Commission of Investigation. Early in his 
career he served as assistant counsel of the U.S. House of 
Representatives Ethics Committee.
    Mark Perez serves as special agent in charge of the Florida 
Department of Law Enforcement's Investigations and Forensic 
Science Program Office. The office conducts independent and 
multijurisdictional investigations, coordinates and directs 
counterterrorism efforts for the State of Florida, and works to 
implement Florida's domestic security strategy.
    Mr. Perez also serves as Florida's Homeland Security 
advisor, and is a member of the Florida Department of Law 
Enforcement's Executive Policy Board. He has held various 
positions while employed in the department. He began his career 
as a law enforcement officer with the city of Winter Park, 
Florida.
    David Maurer is a director of the U.S. Government 
Accountability Office Homeland Security and Justice team where 
he leads GAO's work reviewing DHS and DOJ management issues. 
His recent work in these areas include DHS management 
integration, the Quadrennial Homeland Security Review, Secret 
Service financial management, DOJ grant management and Federal 
prison system, and assessment of technologies for detecting 
explosives in the passenger rail environment.
    Mr. Maurer has previously worked as an acting director of 
GAO's Natural Resources and Environmental team where he managed 
work assessing U.S. global nuclear detection programs, and 
managed work for GAO's International Affairs and Trade team, 
where he reviewed U.S. efforts to combat international 
terrorism and proliferation of weapons of mass destruction, as 
well as U.S. assistance to the former Soviet Union, 
peacekeeping in the Balkans, and several other international 
issues. He was previously detailed to the House Committee on 
Appropriations.
    We thank all of you for being here. Under our rules we 
would ask you to confine your comments to approximately 5 
minutes. We will take your written testimony, and in each case 
will be made a part of the record.
    So, we will begin with Director Stern.

   STATEMENT OF WARREN M. STERN, DIRECTOR, DOMESTIC NUCLEAR 
       DETECTION OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Stern. Good morning, Chairman Lungren, distinguished 
Members of the subcommittee. I very much appreciate the 
opportunity to testify before you today, to answer your 
questions and to discuss any issues you wish to discuss. I am 
particularly pleased that I am joined by my counterpart from 
the General Accountability Office, from the great State of 
Florida, the great city of New York, and of course the 
Department of Energy, as we all work together in the field of 
trying to make America safer.
    It has been a year since I have started DNDO, and 
approximately a year since I testified before you last. So, I 
will use my 5 minutes to describe what we at DNDO have 
accomplished in the past year. I want to discuss what we have 
achieved; not just what is in process, but what we have 
actually completed.
    As you know, the architecture is a core element of what 
DNDO is tasked with completing. So I am very pleased, and as 
you mentioned it, this year by the end--within the past year, 
by the end of last year we were able to complete an interagency 
draft of the Global Nuclear Detection Architecture Strategic 
Plan.
    I recall during my last testimony that this was a 
particular issue the committee wanted completed, and by the end 
of last year, as we had promised, we were able to deliver this 
document, agreed, again, among the seven relevant departments 
to you.
    In addition, just a few months ago, we completed our 
assessment of the Global Architecture, and were able to deliver 
to Congress our joint interagency review. Again, cleared and 
coordinated among the seven departments that are involved in 
the Global Nuclear Detection Architecture. I am very pleased 
that we were able to achieve this in the past 12 months.
    In addition, we have developed new and innovative devices 
in the past year. We have just finished and finalized two 
handheld systems, both of them very advanced.
    One is the advanced operation handheld device, which will 
be available for special teams, specialized teams at the Coast 
Guard and CBP. It is a very advanced device.
    The second is our next generation handheld devices we call 
the RAD-Seeker. This device uses a novel material that did not 
exist until just several years ago. A very improved algorithm; 
it is incredibly light and has much lower maintenance than the 
existing system.
    I am also pleased that people in the field are very much 
waiting for this device to be rolled out. Our final large-scale 
decision procurement will occur on this Thursday. We hope to 
have these devices rolled out, which are more efficient and 
more effective than the current generation of systems.
    When I first testified before you last time I spoke a lot 
about State and locals. A core part of our mission is to 
improve the interior detection capability. In the interior the 
core focus must be on supporting State and locals. 
Consequently, I am very pleased that in the past year the 
administration has reasserted its support for the STC, the 
Securing the Cities program. As you know, New York is the one 
city within the Securing the Cities program and we look forward 
to expanding the program to an additional city next year.
    This year, within the STC program New York held, with our 
support, a major operational exercise that brought together 
players throughout the field as well as Federal authorities. We 
learned a lot through this exercise, and it will help us move 
forward. I will not belabor the STC program because I imagine 
Commissioner Daddario, who is the key leader in that area will 
have more to say.
    But I would like to point out in the State and local area 
that one thing--one additional thing we have is create an 
executive steering council. It is essential in developing the 
domestic architecture that State and locals learn from each 
other, that we in the Federal Government learn from State and 
locals, and that State and locals learn from us, and are 
integrated into the DHS, DNDO, and overall Federal structure. 
So I have created a group called the Executive Steering Council 
of senior members of State and locals so this type of exchange 
could happen. We had our first meeting 3--2 months ago, which 
was very useful and effective.
    Finally, in my initial testimony, I must touch on the ASP, 
the Advanced Spectroscopic Portal. I am very pleased that we as 
a Department and as a Government have just recently made a 
final decision on the pathway for the ASP program.
    As you indicated, the ASP will not proceed as originally 
envisioned. We will not seek certification or a large-scale 
deployment of the ASP. We will deploy the existing systems. We 
will learn from those systems. We will compensate for the 
absence of the ASP with this new advanced handheld, which is 
much cheaper. We will move over time to the approach 
recommended by the National Academies, the technical approach 
recommended by the National Academy of Science. We will look at 
the commercial marketplace for devices that can help compensate 
for the ASP moving forward.
    In conclusion, in the year that I have been at DNDO we have 
made substantial progress in enhancing America's ability to 
prevent nuclear terrorism. I have listed several specific 
examples this morning. Due to time limitations, I cannot go on. 
But I would like to mention that we have made substantial 
progress and substantial specific accomplishments in the area 
of standards setting in the area of helium-3 replacements, in 
the area of research and development, and in the area of 
nuclear forensics. I would be happy to review those 
developments in the question-and-answer period.
    Looking to the future, we will build on these successes by 
defining a new architecture, one that is based on surging 
assets and that will integrate Federal, State, and local 
capabilities.
    Thank you, Chairman Lungren and distinguished Members of 
the subcommittee. Again, I very much am honored by the 
opportunity to speak before you today, and I am happy to answer 
any questions you may have.
    [The statement of Mr. Stern follows:]

                 Prepared Statement of Warren M. Stern
                             July 26, 2011

    Good afternoon Chairman Lungren, Ranking Member Clarke, and 
distinguished Members of the subcommittee. As Director of the 
Department of Homeland Security's (DHS) Domestic Nuclear Detection 
Office (DNDO), I am pleased to testify today with distinguished 
colleagues to discuss nuclear detection. Over the past year, DNDO has 
made great strides in working with our partners and coordinating 
development of a global nuclear detection architecture (GNDA). I will 
also talk about the challenges we face at DNDO and our path forward for 
enhancing and implementing the architecture domestically.
    With assistance and participation from a variety of U.S. Government 
(USG) departments and agencies, DNDO synchronizes and integrates 
interagency efforts to develop technical nuclear detection 
capabilities, measure detector system performance, ensure effective 
response to detection alarms, advance and integrate nuclear forensics 
efforts, and conduct transformational research and development for 
advanced detection technologies. Countering nuclear terrorism is a 
whole-of-government challenge, and DNDO works with Federal, State, 
local, Tribal, international, and private sector partners to fulfill 
this mission. Working with partners from across the administration, 
including the Departments of Energy (DOE), State (DOS), Defense (DOD), 
Justice (DOJ), the intelligence community (IC), and the Nuclear 
Regulatory Commission (NRC), DNDO also coordinates the development of 
GNDA.

        GNDA STRATEGIC PLAN AND JOINT INTERAGENCY ANNUAL REVIEW

    In December 2010, DNDO delivered the GNDA Strategic Plan to 
Congress. This interagency product is designed to guide the Nation's 
nuclear terrorism detection capacity and capability development over 
the next 5 years.
    Recently, DNDO submitted the report on the ``Global Nuclear 
Detection Architecture Joint Annual Interagency Review 2011'' (2011 
GNDA Annual Report) to Congress. The 2011 report includes information 
about the multiple USG programs that collectively seek to prevent 
nuclear or radiological terrorism against the United States by means of 
detection, analysis, and reporting on nuclear or radiological materials 
out of regulatory control.\1\ This report fulfills a requirement of 
Section 1907 of the Homeland Security Act of 2002 (6 U.S.C. 101 et 
seq.) as added by Section 1103 of the ``Implementing Recommendations of 
the 9/11 Commission Act of 2007'' (Pub. L. 110-53), which mandates a 
Joint Annual Interagency Review of the GNDA. The report was jointly 
prepared by interagency partners including DOD, DOS, DOE, and DOJ, the 
Office of Director of National Intelligence (ODNI), and the NRC.
---------------------------------------------------------------------------
    \1\ The term ``out of regulatory control'' refers to materials that 
are being imported, possessed, stored, transported, developed, or used 
without authorization by the appropriate regulatory authority, either 
inadvertently or deliberately.
---------------------------------------------------------------------------
    The Annual Report has enhancements in terms of structure and 
content to provide additional insight into the development of the GNDA 
as well as more analytical rigor. The revised definition of the GNDA 
and the roles and responsibilities specified for each department or 
agency in the GNDA Strategic Plan are reflected in this year's report. 
Further, this report reflects a more thorough analysis and review of 
the architecture. The report is better focused and is based on the GNDA 
boundaries defined in the strategic plan. The Annual Report contains 
extensive details and, for the first time, includes recommendations 
that highlight areas where there currently are opportunities to 
strengthen the GNDA.
    I envision both the Strategic Plan and the Annual Report as part of 
a series of projects that help to define the GNDA. The Strategic Plan 
established the USG definition of the GNDA and established a framework 
for nuclear detection efforts. In the Annual Report, departments and 
agencies were asked to specifically report on the performance goals 
identified in the GNDA Strategic Plan. Building upon these foundational 
documents and internalizing the recommendations will pave the way for 
our continued implementation of the architecture.

                       THE DOMESTIC ARCHITECTURE

    DNDO is responsible for coordinating the GNDA and implementing, by 
working with operational partners, the domestic portion of the GNDA.
    On-going work on the GNDA emphasizes mobile or agile detection 
components, which will increase our capability to respond to escalated 
threat levels by focusing detection assets on effective interdiction. 
The architecture must account for physical and technical limitation in 
order to achieve the best strategies, systems, and operations for 
nuclear detection. We will use existing capabilities and a variety of 
operations and assets at the Federal, State, local, and Tribal levels 
to surge our radiological and nuclear detection abilities in a 
coordinated fashion in response to suspected threats. We have many 
programs, assets, and capabilities that contribute to surge-related, 
radiological, and nuclear detection response activities, and we must 
work to enhance coordination and implementation mechanisms to ensure 
that we make the best use of all available personnel, equipment, and 
knowledge. A more flexible architecture will strategically bring 
together the assets and capabilities for detection and search 
operations into a unified effort for the domestic prevention of 
radiological and nuclear terrorism.

                             PORTS OF ENTRY

    Our current architecture reflects a layered defense with an 
emphasis on static systems. DHS has made considerable progress at the 
border to provide comprehensive radiation detection capabilities with 
the majority of resources concentrated at ports of entry (POEs). The 
Department has focused on these authorized pathways at POEs, 
underscored by Section 121 of the SAFE Port Act, which requires that 
``all containers entering the United States through the 22 ports 
through which the greatest volume of containers enter the United States 
by vessel shall be scanned for radiation.'' A key consideration is the 
need to effectively detect threats without impeding the flow of 
commerce across the border.
    When DNDO was founded in 2005, there were a total of 552 radiation 
portal monitors (RPMs) at our land and seaports of entry. Today, there 
are a total of 1,462 RPMs. Our on-going work with U.S. Customs and 
Border Protection (CBP) to facilitate container security has resulted 
in the scanning of over 99 percent of all incoming containerized cargo 
for radiological and nuclear threats at our land and seaports of entry. 
As this work has matured over the last few years, DNDO has shifted its 
focus to place a greater emphasis on our land borders between POEs, as 
well as maritime and air pathways, and all pathways within our borders.

                  ADVANCED SPECTROSCOPIC PORTAL (ASP)

    The ASP Program was established in 2004 to improve radiation and 
nuclear detection capabilities at our seaports and land border 
crossings and to address technical deficiencies in the existing 
radiation portal program. Over the years, there have been many 
challenges to the ASP program. In February 2010, the then Acting 
Director of DNDO briefed Congress that we were limiting consideration 
of certification of the ASP program to secondary scanning rather than 
primary scanning due to technical challenges and cost.
    Since then, there have been several important developments. The 
most recent field validation revealed that the original design 
specification for ASP, jointly developed by DNDO and CBP in 2007, does 
not adequately reflect the operational needs in the field, particularly 
truck speeds in secondary inspection. In addition, there are now 
competing commercially-available portal radiation detection systems 
that were not on the market when the ASP program began.
    In order to most effectively strengthen radiological and nuclear 
detection capabilities, DHS has concluded that the best course of 
action is to not seek certification of the ASP system for full 
deployment in either primary or secondary inspections. At my 
recommendation and with concurrence from the Department's Acquisition 
Review Board, Secretary Napolitano has directed DNDO and CBP to end the 
ASP program as originally conceived and to instead utilize 13 of the 
existing ASP systems at select ports of entry to facilitate operational 
familiarity with the systems and gather data to support a future 
acquisition program that will include competition from commercially-
available alternatives.
    Secretary Napolitano has directed DNDO and CBP to work with the 
Office of Management and Budget and the appropriations subcommittees to 
make recommendations on redeploying the requested fiscal year 2012 
resources, prioritizing handheld detection and identification systems. 
CBP will also apply more rigorous concepts of operation for use in 
secondary inspections with handheld detectors, as recommended by the 
National Academies of Sciences.
    Deploying advanced detection and identification systems that 
provide security at our ports while facilitating commerce remains an 
important objective. We will continue to pursue this in the most cost-
effective way possible and in the context of the overall nuclear 
detection architecture. We are confident that this plan will result a 
better linkage between operations and technology.

                  IMPLEMENTING A DOMESTIC ARCHITECTURE

    Beyond the ASP program, DNDO is making significant progress in 
implementing an operational architecture for threat detection. DNDO has 
procured thousands of personal radiation detectors (PRDs), radiological 
isotope identification devices (RIIDs), and backpack detectors for CBP, 
United States Coast Guard (USCG), Transportation Security 
Administration (TSA), and State, local, and Tribal law enforcement 
across the country to scan cars, trucks, and other items and 
conveyances for the presence of radiological and nuclear materials. All 
TSA Visible Intermodal Prevention and Response (VIPR) teams and USCG 
teams are now equipped with radiation detection capabilities, including 
USCG personnel specifically trained to board and search vessels. DNDO 
has also made radiological and nuclear detection training available to 
over 15,000 State and local officers and first responders.
    We have recently reached an important milestone in the development 
of the next generation human-portable systems and will be deploying an 
advanced handheld technology to support CBP, USCG, TSA, and other 
emergency response officials on the front lines. Handheld detectors 
have many applications and are used by nearly all operators, providing 
radiological and nuclear detection and identification capabilities. 
Following the success of our advanced handheld, the small area search 
handheld system, RadSeeker, is scheduled for production and deployment 
this year. This next-generation handheld uses a novel detection 
material and is lightweight, enhancing detection capabilities and 
providing for operational ease of use. Our work will continue to 
enhance our Federal capabilities and build on these efforts so that the 
pieces are linked together and can respond as needed. The fiscal year 
2012 budget includes $20 million to procure human portable radiation 
detection equipment including next-generation devices that provide 
enhanced detection capability.
    As I have said previously, State and local law enforcement and 
public safety officials are our operational partners on the front lines 
of responding to threats. DNDO has received an increasing number of 
requests from these partners to assist them in assessing their extant 
capabilities and operations, which supports our emphasis on 
implementing the domestic architecture. Accordingly, DNDO will increase 
the number of engagements with these partners to conduct covert 
testing.
    The President's fiscal year 2012 budget request includes funding 
for a Radiological and Nuclear Challenge that will be initiated to 
provide a forum for information sharing among the Federal, State, 
local, and Tribal stakeholders, as well as a competition within the 
radiological and nuclear detection community. We will invite industry 
to provide product capability demonstrations, which will increase 
awareness of detection products and how operators use these systems.
    The budget request also includes investments for the upgrade of 
three Mobile Detection Deployment Units (MDDU) systems to a larger 
equipment set. DNDO maintains five MDDU systems that provide a surge 
capability that can be readily deployed to support radiological and 
nuclear detection operations for special events and intelligence-driven 
searches. The systems offer a radiological and nuclear detection 
package that can be utilized by a myriad of State and local public 
safety and Federal agencies and provide a force multiplier capability 
to USG Federal assets for special events or in response to threats.
    The President's fiscal year 2012 budget request also proposes 
expanding the Securing the Cities (STC) initiative to one additional 
urban area, designed to enhance the Nation's ability to detect and 
prevent a radiological or nuclear attack in the highest-risk cities, to 
include additional Urban Areas Security Initiative (UASI) jurisdictions 
while continuing to support efforts in the New York City region. 
Expanding this program will provide DNDO assistance to more regional 
partners for implementing self-supported sustainment of capabilities 
and real-time sharing of data from fixed, mobile, maritime, and human-
portable radiation detection systems. Through STC, nearly 11,000 
personnel in the region have been trained in radiological and nuclear 
detection operations and nearly 6,000 pieces of radiological detection 
equipment have been deployed. In April 2011, DNDO and the New York 
Police Department (NYPD) collaborated with other STC partners to 
conduct a very successful, full-scale exercise in the New York City 
region to assess the ability of STC partners to detect radiological and 
nuclear materials and deploy personnel, equipment, and special units in 
accordance with established protocols and in response to threat-based 
intelligence.
    To further support State, local, and Tribal jurisdictions to 
identify and develop targeted levels of radiological and nuclear 
detection capability based on risk factors and increased likelihood of 
encountering illicit material, DNDO has developed a Preventive 
Radiological and Nuclear Detection (PRND) Capability Development 
Framework (CDF). The PRND CDF aids State, local, and Tribal 
jurisdictions in identifying their current levels of capability as well 
as the targeted level of PRND capability that can then be used to 
support grant applications. The framework was developed by DNDO with 
the support of Federal, State, and local subject matter experts.
    Working with the Federal Emergency Management Agency (FEMA), DNDO 
has finalized Preventive Radiological/Nuclear Detection (PRND) National 
Incident Management System (NIMS) Resource Type Definitions. This 
foundational National preparedness guidance supports our State, local, 
and Tribal partners, enabling them to build their own radiological and 
nuclear detection capabilities. PRND NIMS Resource Typing provides a 
common definition of detection resources, including teams, equipment, 
and personnel, to assist them in their planning and operations. This 
initiative will support the creation of PRND programs and help identify 
capability gaps, while increasing the effectiveness of interstate 
mutual aid requests for special events or surge operations.
    DNDO's outreach also includes a State and Local Stakeholder Working 
Group with 25 States and territories meeting quarterly to bring the 
Nation's radiological and nuclear detection community together, inform 
participants on activities within DNDO and the nuclear detection 
community, and obtain feedback on DNDO's programs and initiatives. DNDO 
has conducted Nation-wide radiological and nuclear detection 
situational awareness briefings with 52 UASI regions and metropolitan 
area emergency responder and law enforcement agencies. This spring I 
took DNDO's engagement one step further by establishing a State and 
local Executive Steering Council. In conjunction with our State and 
Local Stakeholder Working Group meetings, I invited State and local 
leadership to meet with me personally and discuss strategic issues 
related to radiological and nuclear detection programs, as well as 
challenges and areas for future collaboration. The response to this 
Executive Steering Council was very positive and leaders were able to 
share details about their efforts and identify issues for partnerships, 
as well as learn about the full range of DNDO activities that could 
benefit their jurisdictions. DNDO is particularly interested in not 
only developing capability through equipment, training, and program 
assistance, but also making available the best and most reliable 
information on equipment, practices, and technical expertise.
    To address detection issues in the maritime pathway, DNDO has done 
significant work with Federal, State, and local partners. We are 
currently collaborating with the USCG and CBP Office of Air and Marine 
to develop small vessel standoff radiation detection capabilities. USCG 
detailees to DNDO are collaborating with DNDO employees and the 
Homeland Security Studies & Analysis Institute to determine the best 
system concept that fits the end user requirements. Through the 
development of strong collaborative relationships with end-users and 
the use of rigorous acquisition processes, we are creating the 
conditions to deliver new capabilities to prevent nuclear terrorism.
    DNDO has also recently completed the West Coast Maritime Pilot in 
Puget Sound and San Diego. The pilot was coordinated through each of 
the regions' Area Maritime Security Committees and successfully 
developed and deployed adaptable small vessel detection capabilities 
that are able to surge deployed assets when necessary. We are currently 
in process of designing a maritime-focused program assistance mechanism 
to assist other port areas in developing similar capabilities.
    technology and crosscutting efforts to support the architecture
    To fulfill its mandate to develop, acquire, and support the 
deployment of radiological and nuclear detection technologies, DNDO has 
embarked on ambitious research and development programs. Since its 
inception, DNDO has initiated more than 250 research and development 
projects with National laboratory, academic, and industrial partners to 
advance detection technologies. These research and development projects 
examine a variety of important areas that contribute to new and 
improved detection capabilities to better support our front-line 
operations.
    Years before the recent helium-3 shortage was identified, DNDO was 
exploring options for better, more cost-effective alternatives for 
neutron detection. DNDO is currently independently testing eight 
different alternative technologies for neutron detection at the Nevada 
National Security Site. These systems reflect advancements in 
developing neutron detectors that do not use helium-3 gas, which are 
crucial in mitigating the current world-wide helium-3 shortfall. By 
working with several vendors simultaneously to find a commercial 
solution to an alternative technology to helium-3-based neutron 
detectors, DNDO is encouraging competition which will lead to cost 
reductions, increased availability, and an acceleration of the 
replacement detectors to the commercial market.
    Further out on the horizon, DNDO's research and development 
programs have identified approximately 14 different technology 
approaches in the pipeline that could be used as alternatives to 
helium-3, including those based on boron or lithium. Some of these 
technologies have been accelerated and have advanced to a point where 
they can be tested with other, more near-term alternative neutron 
detection technologies.
    Over the years, DNDO's test program has grown and matured. To date, 
DNDO has conducted more than 50 separate test and evaluation campaigns 
at over 20 experimental and operational venues. These test campaigns 
were planned and executed with interagency partners using rigorous, 
reproducible, peer-reviewed processes. Tested detection systems include 
pagers, handhelds, portals, backpacks, mobiles, boat- and spreader bar-
mounted detectors, and next generation radiography technologies. The 
results from DNDO's test campaigns have informed Federal, State, local, 
and Tribal operational users on the technical and operational 
performance of radiological and nuclear detection systems, allowing 
them to select the most suitable equipment and effective concepts of 
operations to keep the Nation safe from nuclear terrorist threats.
    Historically, we have focused on developing technology and 
detection systems to address identified needs. Today, DNDO is 
transitioning to a new approach to address detection needs, focusing on 
commercially developed devices, developing Government standards, and 
testing to those standards. Because industry has repeatedly 
demonstrated the ability to rapidly improve detection technologies, we 
have an opportunity to shift our approach to one that is more flexible 
and adaptable and looks to the private sector--as well as other DHS 
components and other Government agencies--to enhance existing products 
and develop new devices. This technical transition will also include a 
new approach at the systems level, which defines strategic interfaces 
at various points in the detector/system architecture, allowing system 
upgrades without wholesale changes. Utilizing a ``commercial first'' 
approach, we intend to leverage the important industry-led innovations 
and developments.
    We also have supported the development, publication, and adoption 
of National consensus standards for radiation detection equipment. 
Several such standards now exist for use in homeland security. In 2007, 
DNDO collaborated with the National Institute of Standards and 
Technology to conduct a review of all National and international 
consensus standards for preventive radiological and nuclear detection 
systems. This survey information was used to support the formation of 
an interagency working group to draft Government-unique technical 
capability standards (TCS) in April 2008. I am very pleased that we are 
currently finalizing the TCS for handheld systems. We are also 
coordinating two additional draft standards with the interagency.
    The DNDO Graduated Radiological/Nuclear Detector Evaluation and 
Reporting (GRaDER<SUP>SM</SUP>) Program is using available standards to 
test and evaluate commercially developed systems. GRaDER<SUP>SM</SUP> 
is a conformity assessment program that provides independent standards 
compliance information for selected radiation detection equipment. The 
program has created the infrastructure for voluntary, vendor testing of 
commercial off-the-shelf radiological/nuclear detection equipment by 
independent, accredited laboratories against National consensus 
standards and Government-unique TCS. Final test results for our initial 
GRaDER<SUP>SM</SUP> testing are expected this month. We anticipate that 
the GRaDER<SUP>SM</SUP> Evaluated Equipment List--which is supported by 
the FEMA's guidance for compliance in relation to their grants 
program--will enable Federal, State, local, Tribal, and territorial 
agencies to make more-informed radiological/nuclear detector 
procurement decisions. Since we anticipate further testing facilitated 
through the GRaDER<SUP>SM</SUP> program will be funded by the 
technology vendors, the President's fiscal year 2012 budget request 
includes minimal funding for initiating phase 2 of the program, which 
will evaluate systems against Government TCS and maintain the 
GRaDER<SUP>SM</SUP> Evaluated Equipment List. GRaDER<SUP>SM</SUP> 
supports both DNDO's work with industry, by encouraging commercial 
development of products that can be tested to published standards, as 
well as by enhancing our outreach and engagement with State and local 
partners who benefit from being able to access the verified equipment 
performance reports.
    Beyond our work with DHS Component and State and local partners, 
DNDO's testing expertise and experience is sought by interagency 
partners, such as DOE and DOD, and international partners such as the 
United Kingdom, Canada, Israel, the European Union, and the 
International Atomic Energy Agency. DNDO has an active partnership with 
the European Commission's Joint Research Center to conduct the Illicit 
Trafficking Radioactive Assessment Program+10 (ITRAP+10), an ambitious 
3-year test program to evaluate nine classes of radiological/nuclear 
detection systems in U.S. and European test facilities.

                              PATH FORWARD

    Nearly a year into my tenure at DNDO, I feel we have accomplished 
much and are on track to develop and implement an architecture that 
will be better-able to address operational detection requirements. Our 
approach at DNDO is evolving at every level to be more rigorous while 
being more responsive to the needs of operators and inclusive of all 
technologies that may improve capabilities. We are working with the IC 
including DHS's Office of Intelligence and Analysis to develop 
realistic threat scenarios that we can then map to existing and future 
capabilities that we may need in order to appropriately respond to 
various situations. This will guide our future development of the GNDA 
and provide us with a framework for developing metrics that will 
provide insight into the effectiveness of our assets and capabilities 
for addressing threats. This work will help us better coordinate and 
implement a nuclear detection architecture that integrates Federal, 
State, and local efforts.
    Chairman Lungren, Ranking Member Clarke, I thank you for this 
opportunity to discuss the nuclear detection architecture and the 
progress of DNDO. I am happy to answer any questions the subcommittee 
may have.

    Mr. Lungren. Thank you very much, Mr. Stern.
    Before we continue with the other panelists, my Ranking 
Member and Ranking Member of the subcommittee is present. I 
would just like to give her a chance for any statement she 
would like to make.
    Ms. Clarke. Thank you, Mr. Chairman. Thank you for holding 
the hearing to discuss developments in the Global Nuclear 
Detection Architecture.
    Good morning to our panelists.
    The enormous devastation that would result if terrorists 
use a nuclear weapon or nuclear materials successfully in a 
terrorist act requires us to do all we can to prevent them from 
entering or moving through the United States. The detection of 
special nuclear materials being smuggled or otherwise 
transported into or through the United States is the main 
mission of the Domestic Nuclear Detection Office, DNDO, and it 
has a further function in the development of the development of 
the Global Nuclear Detection Architecture.
    DNDO also plays a role in nuclear forensics and security of 
radiological materials. DNDO was one of the major directorates 
within the Department, and the two key projects in the nuclear 
diction area are the deployment of current generation radiation 
portal monitors, RPM, and the development of the next 
generations of detection devices.
    I understand we are going to hear some new developments in 
today's testimony from Mr. Stern, which we just heard, 
especially concerning the ASP program. I will have a couple 
questions about that a little bit later.
    At the end of March of this year DNDO met with its 
interagency partners in the Department of Homeland Security and 
the Office of National Intelligence, the Nuclear Regulatory 
Commission, the Departments of Defense, Energy, Justice, and 
State to conduct a joint review of the performance goals 
identified in the Global Nuclear Detection Architecture 
Strategic Plan. I commend Director Stern for his energetic 
efforts to produce the GNDA Strategic Strategy--excuse me--by 
the end of 2010, and for moving quickly on the joint annual 
interagency review that was delivered to us just a few weeks 
ago.
    It was obvious we needed a strategy, and this subcommittee 
was glad DNDO was able to put the very complex interagency 
review together quickly and cooperatively. DNDO now has 
responsibility for implementing the domestic portion of the 
plan, and I am anxious to see progress on the rubber-meets-the-
road plan.
    Additionally, I have noted that DNDO has revisited some 
past assumptions that guided development of a global nuclear 
detection strategy, particularly assumptions related to threat 
intelligence resulting in the concept in immobility is not a 
desirable characteristic among nuclear and radiological 
detection devices. It is important that this plan anticipate a 
new focus on State and local resources, which become critical 
to providing surge capabilities in specific regions.
    I understand that part of what we will hear today will give 
us insight into this concept of surging large number of people 
and devices, and communicating and synthesizing information 
very rapidly, and detecting nuclear material or weapons, and 
even more importantly, that the architecture strategy involves 
reliance on massive numbers of State and local officials to 
address nuclear or radiological threats.
    My concern is how do we plan for a complex system like this 
when we are anticipating a billion-dollar cut in the 
Department's budget, which will drastically reduce the 
capabilities of State and local authorities who depend heavily 
on DHS grants, and are already stressed under their own 
considerable State and local workloads?
    I will be listening carefully to today's testimony for any 
indication that planning for the GNDA is taking into 
consideration the very real possibility that huge budget cuts 
proposed in this year's appropriations would be approved in the 
House of Representatives. Agencies, and especially DNDO, must 
be fully aware of what implementation goals would look like 
under these proposed Draconian cuts to our National nuclear 
detection apparatus.
    In conclusion, the production of the GNDA Strategic Plan 
has afforded Members of the subcommittee and DHS leadership a 
new opportunity to look at the way DNDO could best fulfill its 
mission. In order to prevent the unthinkable, we must deploy 
the best technology, employ the best people and do the best 
planning. I repeat, in these times of severe budget cutbacks, 
our planning must reflect how we propose to accomplish our 
National security goals in nuclear detection with harshly 
restricted assistance to our State and local partners.
    Thank you, Mr. Chairman. I yield back.
    Mr. Lungren. Thank you very much for your statement.
    Now we will continue with the panel. We now recognize Mr. 
Pavetto to testify.

 STATEMENT OF CARL S. PAVETTO, DEPUTY ASSOCIATE ADMINISTRATOR, 
   OFFICE OF EMERGENCY OPERATIONS, NATIONAL NUCLEAR SECURITY 
              ADMINISTRATION, DEPARTMENT OF ENERGY

    Mr. Pavetto. Good morning, Chairman Lungren, Ranking Member 
Clarke, and Members of the subcommittee. My name is Carl 
Pavetto, and I am the deputy associate administrator for the 
U.S. Department of Energy's National Nuclear Security 
Administration. I am the deputy for the Office of Emergency 
Operations.
    First I would like to express my sincere appreciation for 
the opportunity to speak to you today regarding the 
contribution that DOE makes in preventing domestic radiological 
and nuclear terrorist attacks through the conduct of detection 
and search operations.
    As you may know, the National Nuclear Security 
Administration was established by Congress in 2000 as a 
semiautonomous entity within DOE. The NNSA maintains the 
safety, security, and effectiveness of the U.S. nuclear weapons 
stockpile. We accelerate efforts to reduce the global threat 
posed by nuclear proliferation and terrorism. We provide safe 
and effective nuclear propulsion systems for the U.S. Navy.
    We also possess robust technical capabilities, and support 
the world's top professional scientists, engineers, and other 
leading nuclear experts that are resident in our National 
laboratories. Within NNSA and the Office of Emergency 
Operations we draw on these experts in order to execute our 
mission and to maintain the U.S. Government's Federal response 
capabilities for radiological consequence management, render-
safe, and the purpose of today's hearing, radiological and 
nuclear detection and search.
    The U.S. Government strategy for interdicting radiological 
or nuclear materials or devices involves a multifaceted and 
multiagency cooperative approach. To maintain our Nation's 
capability to respond to specific nuclear and radiological 
threats, staff from my office, the Office of Emergency 
Operations, work cooperatively with the Departments of Homeland 
Security and the FBI, the Department of Defense, specifically 
DNDO, to develop the interagency domestic radiological nuclear 
search operations plan, or the RNSOP.
    This plan was a product of the Countering Nuclear Terrorism 
Interagency Planning Committee and was approved by the National 
security staff on May 27 of this year. Radiological and nuclear 
search is a law enforcement function of the Global Nuclear 
Detection Architecture. It is led by the Federal Bureau of 
Investigation. The plan defines a targeted response that 
increases the probability for interdicting a credible 
radiological or nuclear threat to prevent an attack within the 
United States.
    As the technical lead for the RNSOP and support of FBI as 
the lead agency, personnel from my office support the bureau by 
providing advanced technical capabilities needed to support 
evaluation of the credibility of the threat and for planning 
and conducting search operations in support of investigative or 
tactical objectives. Specifically, our teams are ready to 
respond and provide the technical expertise needed.
    We--in addition we provide support for the Department of 
Homeland Security's DNDO as it carries out its responsibilities 
for implementation of the Global Nuclear Detection Architecture 
or GNDA in two aspects. One is the day-to-day operations, the 
steady state preventative radiological nuclear detection. The 
other is the enhanced steady-state, and if there is an actual 
terrorist threat or potential terrorist threat.
    During the steady-state operations we provide technical 
experts to our partners and lead agencies, including DNDO, to 
develop and provide training to State and local first 
responders. We work with DNDO in providing radiological and 
nuclear detection and search training to a variety of groups, 
in particular the National Guard civil support teams to enhance 
the capability and have the--direct the resources to meet the 
threat.
    For the enhanced steady-state we support planning efforts 
and detection operations associated with mass public gatherings 
such as National Special Security Events, and we rely primarily 
on our radiological assistance program teams, which are spread 
throughout the country. These units are well-trained and 
equipped to--with the search and detection capabilities.
    I am pleased to report the roles and responsibilities of 
DNDO--I am sorry, of NNSA in the Global Nuclear Detection 
Architecture, and that they are through the work led by Mr. 
Stern. We are much--the responsibilities are much clearly--much 
more clearly defined than before. We continue to make progress, 
and are working to further clarify agency roles and 
responsibilities.
    It is our goal to continue to bring our unique technical 
capabilities to bear to address radiological and nuclear 
threats, and increase risk. Our top priority is to develop and 
enhance our Federal capabilities with the architecture and 
strategies.
    Once again, thank you, Chairman Lungren and Ranking Member 
Clarke and Members of the subcommittee for giving me this 
opportunity. I look forward to answering any questions you may 
have.
    [The statement of Mr. Pavetto follows:]

                 Prepared Statement of Carl S. Pavetto
                             July 26, 2011

    Good morning Chairman Lungren, Ranking Member Clarke, and Members 
of this subcommittee. My name is Carl Pavetto, and I am the Deputy 
Associate Administrator for the U.S. Department of Energy (DOE) 
National Nuclear Security Administration's Office of Emergency 
Operations. First, I would like to express my sincere appreciation for 
the opportunity to speak to you today regarding the contribution DOE 
makes in preventing domestic radiological and nuclear terrorist attacks 
through the conduct of detection and search operations.
    As you may know, the National Nuclear Security Administration, or 
NNSA, was established by Congress in 2000 as a semi-autonomous entity 
within DOE. The NNSA maintains the safety, security, and effectiveness 
of the U.S. nuclear weapons stockpile, accelerates efforts to reduce 
the global threat posed by nuclear proliferation and terrorism, and 
provides safe and effective nuclear propulsion systems for the U.S. 
Navy. We also possess robust technical capabilities and support the 
world's top professional scientists, engineers, and other leading 
nuclear experts resident in our National Laboratories. Within NNSA, the 
Office of Emergency Operations draws upon these experts to execute its 
mission to maintain the U.S. Government's Federal response capabilities 
for radiological consequence management, render-safe, and the purpose 
of today's hearing, radiological and nuclear detection and search.
    The U.S. Government's strategy for interdicting radiological or 
nuclear materials or devices involves a multi-faceted and multi-agency 
cooperative approach. To maintain our Nation's capability to respond to 
specific nuclear and radiological threats, staff from my office--the 
Office of Emergency Operations--works cooperatively with the Department 
of Homeland Security, the Federal Bureau of Investigation, and the 
Department of Defense to develop the Interagency Domestic Radiological 
Nuclear Search Operations Plan (RNSOP). This plan was a product of the 
Countering Nuclear Terrorism Interagency Planning Committee, and was 
approved by the National Security Staff on May 27, 2011. Radiological 
and nuclear search is a law enforcement function of the global nuclear 
detection architecture (GNDA) led by the Federal Bureau of 
Investigation (FBI). RNSOP defines a targeted response that increases 
the probability for interdicting a credible radiological or nuclear 
threat to prevent an attack within the United States.
    DOE/NNSA is the technical lead for RNSOP in support of the FBI as 
the lead agency. Personnel from the Office of Emergency Operations 
support the Bureau by providing the advanced technical capabilities 
needed to support evaluation of the credibility of the threat and for 
planning and conducting search operations in support of investigative 
or tactical objectives. Specifically, our teams are ready to respond 
and provide technical expertise by:
  <bullet> assessing the technical and operational characteristics of a 
        radiological or nuclear threat;
  <bullet> integrating technical analysis into situational planning 
        efforts, such as calculating detection ranges and speed of 
        passage, identifying the appropriate detection equipment for 
        the assumed source, and issuing guidance on search techniques 
        for specific environments;
  <bullet> providing specialized assets capable of conducting and 
        tracking aerial, maritime, and land-based search operations to 
        locate and identify the threat;
  <bullet> interpreting the results of search operations while in 
        progress and conducting post-operational analysis that result 
        in data products that represent completed operations; and
  <bullet> performing rapid scientific evaluation of radiation spectral 
        data and final adjudication of special nuclear material through 
        DOE's Triage Program. (Triage, is DOE's system of reachback 
        capabilities to advanced scientific support for hazards and 
        risks assessments.)
    In addition, DOE/NNSA provides support to the Department of 
Homeland Security's Domestic Nuclear Detection Office (DNDO) as DNDO 
carries out its responsibilities for the domestic implementation of the 
Global Nuclear Detection Architecture (GNDA) in two aspects: (1) 
Steady-state Preventive Radiological Nuclear Detection, or PRND and (2) 
enhanced steady-state PRND.
    During steady-state PRND, we provide technical experts to our 
partner departments and lead agencies, including the DNDO, to develop 
and provide training to State and local first responders. Moreover, we 
work with DNDO in providing radiological and nuclear detection and 
search training to National Guard Civil Support Teams across the United 
States and specialized Federal assets, such as the Transportation 
Security Administration's Visible Intermodal Prevention and Response 
Teams. Another example of these efforts can be seen in our assistance 
through DNDO to State and local planning for steady-state PRND in the 
National Capital Region, and the cities of New York and Chicago.
    For enhanced steady-state PRND, we support planning efforts and 
detection operations associated with mass public gatherings, such as 
National Special Security Events. Additionally, our regionally based 
Radiological Assistance Program, or RAP teams, support the maintenance 
and deployment of DNDO's Mobile Detection Deployment Units. These units 
are used during planned mass public gatherings to provide training 
delivered by RAP personnel to State and local responders. It should be 
noted that steady-state or enhanced steady-state PRND can be executed 
concurrently with targeted RNSOP operations.
    I am pleased to report that the roles and responsibilities of DOE/
NNSA in the GNDA are now more clearly defined and articulated. We 
continue to make progress and are working to further clarify agency 
roles and responsibilities, in close coordination with our Federal 
partners, during both steady-state and enhanced steady-state 
operations. It is our goal to continue to bring our unique technical 
capabilities to bear to address radiological and nuclear threats and 
increased risk.
    Once again, thank you Chairman Lungren, Ranking Member Clarke, and 
Members of the subcommittee for affording me the opportunity to speak 
with you today regarding the DOE/NNSA's capability to enhance our 
National security by providing advanced technical support during 
detection and search operations. I look forward to answering any 
questions you may have.

    Mr. Lungren. Thank you very much, Mr. Pavetto.
    Now the Chairman will recognize Mr. Daddario to testify.

    STATEMENT OF RICHARD DADDARIO, DEPUTY COMMISSIONER FOR 
       COUNTERTERRORISM, NEW YORK CITY POLICE DEPARTMENT

    Mr. Daddario. Good morning, Mr. Chairman, Ranking Member 
Clarke, and Members of the subcommittee. Thank you for the 
invitation to represent the New York City Police Department 
before this subcommittee.
    The subject of this morning's hearing, preventing nuclear 
and radiological terrorism within the United States, presents 
enormous challenges to all of us. President Obama has often 
expressed his concern about the threat of nuclear and 
radiological terrorism.
    He has said the greatest danger to the American people is 
the threat of a terrorist attack with a nuclear weapon and the 
spread of nuclear weapons to dangerous regimes. We must ensure 
that terrorists never acquire a nuclear weapon. This is the 
most immediate and extreme threat to global security.
    Congress, through the Bipartisan Commission on the 
Prevention of Weapons of Mass Destruction, Proliferation and 
Terrorism, has stated similar concerns in no uncertain terms. 
In its 2008 report the commission said that it is more likely 
than not that a weapon of mass destruction will be used 
somewhere in the world by the end of 2013.
    The threat of a nuclear or radiological weapon being used 
against New York City is also among the foremost concerns of 
Police Commissioner Raymond Kelly. Through the Securing the 
Cities program the NYPD has committed significant resources to 
guard against a nuclear radiological weapon, the use of which 
might well overwhelm the capacity to recover of even so great 
and resilient a city as New York.
    The STC is a two-part Federally funded effort to protect 
New York City from the threat of an improvised nuclear device 
or a radiological dispersal device, in other words, dirty bomb. 
The first part of the program involves equipping New York State 
and local regional partners the state-of-the-art mobile 
radiological detection equipment and training them in its 
proper use.
    The NYPD has 12 principal partners in New York, New Jersey, 
and Connecticut. These 12 principal partners represent 150 
local law enforcement and public safety agencies within a 40-
mile radius of New York City.
    The STC funding dispersed to date has enabled the NYPD and 
its regional partners to achieve several important 
accomplishments. Among them are these.
    The NYPD has taken delivery of over 4,200 personal 
radiation detectors, 156 pack guide backpacks, 77 radiological 
isotope identification devices and 15 mobile detection systems, 
and completed distribution of this equipment to its regional 
partners. We are now in the process of acquiring additional 
equipment for us and our partners.
    The NYPD has networked many of these radiological sensors 
and enabled them to provide real-time radiation data into a 
coordination center as part of the lower and midtown Manhattan 
security initiatives. At the center officers can monitor real-
time radiation levels from equipment in the field installed on 
vans, boats, and the rooftops of precincts.
    The NYPD has also developed a Bluetooth gateway device that 
we are in the process of procuring, which will enable real-time 
transmission of radiation data from personal radiation 
detectors on police officers' belts. We tested this device, and 
it works perfectly.
    The system is designed to alert officers in real-time to 
potentially dangerous radiation levels in the field. To my 
knowledge, this effort to network this type of sensor in one 
system is unprecedented.
    The NYPD and its regional partners have developed one 
concept of operation for detection and interdiction of illicit 
radioactive material. This concept of operations will enable 
the regional partners to lock down and secure the region based 
on 400 predetermined choke points in the face of an imminent 
threat.
    The NYPD and its regional partners have conducted land-
based, maritime, and transportation-based exercises involving 
surreptitiously transported radiological substances. In April 
the NYPD and its partners conducted a full-scale regional 
exercise designed to evaluate our ability to detect and 
interdict illicit radiological materials. The 5-day exercise, 
which by all accounts was successful, involved choke points and 
other activity in New York, Connecticut, and New Jersey both on 
land, including rail and highways, and in the waterways of the 
region.
    The second part of the program involves putting in place a 
permanent radiological defensive ring through the installation 
of fixed radiological detection equipment to monitor traffic at 
all bridges and tunnels that lead into New York City. We are 
continuing to work with DNDO and Director Stern to put this 
system in place.
    The STC program is an extraordinary example of interagency 
and intergovernmental collaboration. DHS, through DNDO provides 
the technical expertise and funding for procurement, research, 
and development. State and local regional partners provide 
manpower, and in the case of the NYPD, various foundational 
technical infrastructure systems.
    From the outset, the STC program was developed--was 
intended to develop an operationally viable regional 
architecture for radiological and nuclear detection that can be 
replicated in cities across the country. Both the mobile 
detection and fixed-site detection portions of the STC program 
require additional funding to achieve this goal. This 
additional funding is required to achieve--if I could have a 
few--1 more minute.
    The additional funding is required to achieve wireless 
connectivity. We are making great progress in this effort to 
network the mobile radiation detection equipment so that the 
data will be viewable in real time at the Lower Manhattan 
Security Coordination Center.
    We also need funding to enhance capability and 
sustainability. We need to procure more advanced equipment that 
will enhance land, air, and sea protection capabilities, and 
enforce procedures and programs for inventory control, 
standardization, maintenance, and calibration of equipment. We 
also need to ensure usability to increase and continue 
training, and to develop interdiction operations through the 
conduct of advanced deployment on a regional scale.
    I also want to note that in addition to administering the 
Securing the Cities program, we recently entered into a 
memorandum of understanding with the National Nuclear Security 
Agency. As part of this agreement NNSA will install remote 
monitoring systems in New York City medical, academic, and 
commercial-industrial facilities that house radiotherapy and 
radiation devices that contain highly radioactive isotopes, 
which if removed by terrorists can be used to create a dirty 
bomb. We will receive real-time video alarm from these remote 
monitoring systems.
    I thank you again for affording me as a representative of 
the New York City Police Department the opportunity to appear 
before you today, and I look forward to answering any questions 
you may have.
    [The statement of Mr. Daddario follows:]

                 Prepared Statement of Richard Daddario

    Good morning Mr. Chairman, Ranking Member Thompson, Members of the 
subcommittee. Thank you for the invitation to represent the New York 
City Police Department (NYPD) before the Subcommittee on Cybersecurity, 
Infrastructure Protection, and Security Technologies. For the record, 
my name is Richard Daddario, and I am the Police Department's Deputy 
Commissioner of Counterterrorism.
    The subject of this morning's hearing--preventing nuclear and 
radiological terrorism within the United States--presents enormous 
challenges to all of us. President Obama has often expressed his 
concern about the threat of nuclear and radiological terrorism. He has 
said:

``The gravest danger to the American people is the threat of a 
terrorist attack with a nuclear weapon and the spread of nuclear 
weapons to dangerous regimes.''

``The threat of global nuclear war has gone down, but the risk of 
nuclear attack has gone up.''

``We must ensure that terrorists never acquire a nuclear weapon. This 
is the most immediate and extreme threat to global security.''

    Congress, through the bipartisan Commission on the Prevention of 
Weapons of Mass Destruction Proliferation and Terrorism, has stated 
similar concerns in no uncertain terms. In its 2008 report, the 
Commission staid that is ``more likely than not that a weapon of mass 
destruction will be used somewhere in the world by the end of 2013.''
    The threat of a nuclear or radiological weapon being used against 
New York City is also among the foremost concerns of Police 
Commissioner Raymond Kelly. Through the Securing the Cities Program 
(STC), the NYPD has committed significant resources to guard against a 
nuclear or radiological weapon, which might well overwhelm the capacity 
to recover of even so great and resilient a city as New York.
    The STC is a two-part Federally funded effort to protect New York 
City from the threat of an improvised nuclear device or a radiological 
dispersal device (dirty bomb).
    The first part of the program involves equipping New York's State 
and local regional partners with state-of-the-art mobile radiological 
detection equipment and training them in its proper use. The NYPD has 
12 principle partners in New York, New Jersey, and Connecticut. These 
12 principle partners represent 150 local law enforcement and public 
safety agencies within a 40-mile radius of New York City.
    The STC funding disbursed to date has enabled the NYPD and its 
regional partners to achieve several important accomplishments, among 
them:
  <bullet> The NYPD has taken delivery of over 4,200 personal radiation 
        detectors (PRDs), 156 PackEye backpacks, 77 radiological 
        isotope identification devices, and 15 mobile detection 
        systems; and completed distribution of this equipment to its 
        regional partners. The NYPD has already placed an additional 
        order for 1,000 PRDs, approximately 100 PackEye backpacks, and 
        five mobile platform vehicles.
  <bullet> The NYPD has networked many of these radiological sensors 
        and enabled them to provide real-time radiation data into a 
        Coordination Center, as part of the Lower and Midtown Manhattan 
        Security Initiatives. At the Center, officers can monitor real-
        time radiation levels from equipment in the field installed on 
        vans, boats, and the rooftops of precincts. The NYPD has also 
        developed a Bluetooth gateway device that we are in the process 
        of procuring which will enable real-time transmission of 
        radiation data from personal radiation detectors on police 
        officers belts. The system is designed to alert officers in 
        real-time to potentially dangerous radiation levels in the 
        field. To my knowledge, this effort is unprecedented.
  <bullet> The NYPD and its regional partners have developed one 
        concept of operations for detection and interdiction of illicit 
        radioactive materials; this concept of operations will enable 
        the regional partners to lock down and secure the region based 
        on 400 pre-determined chokepoints in the face of an imminent 
        threat.
  <bullet> The NYPD and its regional partners have conducted land-
        based, maritime, and transportation-based exercises involving 
        surreptitiously transported radiological substances. In April, 
        the NYPD and its STC partners conducted a full-scale, regional 
        exercise designed to evaluate our ability to detect and 
        interdict illicit radiological materials. The 5-day exercise, 
        which by all accounts was successful, involved chokepoints and 
        other activity in New York, Connecticut, and New Jersey both on 
        land, including rail and highways, and in the waterways of the 
        region.
    The second part the program involves putting in place a permanent 
radiological defensive ring through the installation of fixed 
radiological detection equipment to monitor traffic at all bridges and 
tunnels that lead into New York City.
    The STC program is an extraordinary example of interagency and 
intergovernmental collaboration. DHS, through the Domestic Nuclear 
Detection Office (DNDO), provides the technical expertise and funding 
for procurement research and development; State and local regional 
partners provide manpower and, in the case of the NYPD, various 
foundational technical infrastructure systems.
    From the outset, the STC program was intended to develop an 
operationally viable regional architecture for radiological and nuclear 
detection that can be replicated in cities across the country. Both the 
mobile detection and fixed-site detection portions of the STC program 
require additional funding to achieve this goal.
    This additional funding is required to:
  <bullet> Achieve wireless connectivity.--We want to network the 
        mobile radiation detection equipment purchased with STC program 
        funds so that the data will be viewable in real-time at the 
        Lower Manhattan Security Coordination Center.
  <bullet> Enhance capability and sustainability.--We need to procure 
        more advanced equipment that will enhance land, air, and sea 
        detection capabilities; and enforce procedures and programs for 
        inventory control, standardization, maintenance, and 
        calibration of equipment purchased with STC program funds 
        across the region.
  <bullet> Ensure usability.--We need to continue equipment training 
        and exercises with the regional partners; and
  <bullet> Develop interdiction operations.--It is vitally important to 
        conduct advanced radiation detection and interdiction 
        deployments on a regional scale.
    I should note that in addition to administering the Securing the 
Cities Program, the NYPD recently signed a Memorandum of Understanding 
with the National Nuclear Security Agency as part of its Global Threat 
Reduction Initiative. As part of this Agreement, NNSA will install 
remote monitoring systems at New York City medical, academic, and 
commercial/industrial facilities that house radiotherapy and 
irradiation devices that contain highly radioactive isotopes, which, if 
removed by terrorists, can be used to create dirty bombs. The NYPD will 
receive real-time video alarms from these remote monitoring systems. 
Thank you once again for affording me, as a representative of the New 
York City Police Department, the opportunity to appear before you 
today. I would be happy to answer any of your questions.

    Mr. Lungren. Thank you, Mr. Daddario. I will refrain from 
asking you whether it has been easier to work with all of the 
Government agencies here in the United States than it was when 
you were liaison to Russian law enforcement at the embassy in 
Moscow.
    But Mr. Perez, you are recognized for 5 minutes.

  STATEMENT OF MARK PEREZ, HOMELAND SECURITY ADVISOR, FLORIDA 
                 DEPARTMENT OF LAW ENFORCEMENT

    Mr. Perez. Good morning, Chairman Lungren, Ranking Member 
Clarke, and distinguished Members of the subcommittee. Thank 
you for allowing me the opportunity to present my testimony 
before you today on Florida's State-wide PRND capabilities.
    I have the distinct honor of serving as Florida's homeland 
security advisor. When Florida created its domestic security 
and governance structure, it took into account the diverse 
cultures and landscape that shape our great State. An inclusive 
structure was formed that encouraged and facilitated 
multijurisdictional and multidisciplinary participation at all 
levels of government. The main components of our State 
structure include seven regional domestic security taskforces 
who collectively support our State's strategic plan and form 
the critical link between policymakers at the State level and 
boots-on-the-ground partners.
    The State working group, led by an executive board and 
supported by multidisciplinary subject matter experts from each 
regional taskforce affords the opportunity for State-wide 
consistency in plain development, planning, and delivery of 
training and exercise, and equipment recommendations. Finally, 
our Domestic Security Oversight Council, which provides 
executive direction and leadership, and serves as an advisory 
council, providing guidance to the regional taskforces and 
State working group.
    In 2006 Florida began partnering with DHS' DNDO when our 
State Department of Transportation and Department of Health 
worked on the Southeast Transportation Corridor Pilot 
installing fixed radiological portal monitors at weigh station 
facilities. The DNDO further assisted our efforts by helping 
our State develop a mobile detector capable of being deployed 
at weigh stations, special event venues, intelligence-driven 
locations, and using control operations.
    In addition, the DNDO assisted our Florida Fish and 
Wildlife Conservation Commission by developing a small craft 
initiative used to interdict waterborne radiological nuclear 
threats in our State.
    In 2007, our Domestic Security Oversight Council recognized 
these efforts and moved to further build out our State's PRND 
capabilities. A collaborative effort was forged between 
Federal, State, and local partners. This group became the focus 
of the DNDO's program assistance pilot, facilitating the 
development of a State-wide PRND enterprise model which could 
be implemented in other States and territories.
    Some of the early challenges identified in the development 
of the State-wide PRND strategy were the procurement, training, 
and use of scientific equipment not previously used by law 
enforcement. As this activity was relatively new to law 
enforcement in our State, a concept of operations had to be 
created, and we sought guidance from DNDO and other entities 
which have been engaged in PRND operations.
    The other important factors were the identification of 
resources related to budget and staffing, as well as a State-
wide equipment acquisition strategy ensuring that all regional 
PRND needs were identified and met with common equipment in 
order to simplify logistical support, operational sustainment, 
and training and requirements. The acquisition strategy was 
defined and implemented to meet basic and specialized 
capabilities, as well as defining requirements to provide for 
future technological insertion and upgrades to existing 
equipment.
    Training officers in the operation of specialized equipment 
was also a factor. Historically, this was accomplished by 
attending courses offered by DHS. However, once trained, the 
individual jurisdictions had to provide the training and the 
concept of operations, as well as the policy and procedures for 
a specific jurisdiction.
    Furthermore, due to the high demand for the training and 
limited availability of the courses offered, we developed our 
own capabilities so that the training needs of Florida agencies 
could be promptly met. A training model was created utilizing 
the Florida college system, and the State public-private 
workforce system.
    Currently Florida has a cadre of instructors certified by 
DHS who have successfully trained hundreds of our officers 
throughout the State. Florida has a strong, State-wide PRND 
strategy built upon the foundation of our State's strategic 
plan and structure that encourages and facilitates 
multijurisdictional and multidisciplinary participation at all 
levels. We have shared our PRND strategy with other States and 
territories to assist with their build-out efforts, as well as 
soliciting feedback on how it can be improved upon.
    In closing, I take a statement from the Greek playwright 
Sophocles, ``success is dependent on effort.'' Without the 
combined efforts from our Federal, State, and local and 
territorial partners, we cannot be successful with ensuring the 
continued successes of our PRND mission. Thank you.
    [The statement of Mr. Perez follows:]

                    Prepared Statement of Mark Perez
                             July 25, 2011

    Good morning Mr. Chairman and committee Members, thank you for 
allowing me the opportunity to present my testimony before you today on 
Florida's State-wide PRND capabilities.
    My name is Mark Perez and I am a special agent in charge with the 
Florida Department of Law Enforcement; I also have the honor of serving 
as Florida's Homeland Security Advisor. Florida is heralded as one of 
the top tourist destinations in the world; it has the second-longest 
coastline in our country; and is the fourth-most populated State in our 
great Nation; home to nearly 19 million Floridians, who cultures are as 
unique and diverse as our State's landscape. These are some of the same 
influences that formed the basis for Florida's Domestic Security 
Strategic Plan and Governance Structure into an inclusive structure 
designed to encourage and facilitate multi-jurisdictional and multi-
disciplinary participation at all levels of government. The structure 
has three main components:
    (1) Our seven Regional Domestic Security Task Forces (RDSTF) serve 
        as the foundation of our State's domestic security structure. 
        Each RDSTF consists of local, multidisciplinary representatives 
        who collectively support our State's strategic plan and form 
        the critical link between policy makers at the State level and 
        local ``boots-on-the-ground'' partners faced with the daily 
        challenges of protecting our communities.
    (2) Our State Working Group on Domestic Preparedness (SWG), which 
        is headed by an Executive Board, is made up of multi-
        disciplinary subject matter experts from each RDSTFs and 
        designated urban areas, as well as other key agency liaisons. 
        The SWG structure affords the opportunity for State-wide 
        consistency in plan development, planning and delivery of 
        training and exercises, and equipment recommendations.
    (3) Our Domestic Security Oversight Council (DSOC) provides 
        executive direction and leadership with respect to Florida's 
        strategic plan and serves as an advisory council by providing 
        guidance to the RDSTFs and SWG. The DSOC also make 
        recommendations to the Governor and the Legislature related to 
        Florida's counter-terrorism and domestic security efforts.
    In February 2006, Florida began partnering with the Department of 
Homeland Security's (DHS) Domestic Nuclear Detection Office (DNDO) when 
the State's Department of Transportation's Office of Motor Carrier 
Compliance (OMCC), in conjunction with the Florida Department of 
Health's Bureau of Radiation Control (BRC) worked on the Southeast 
Transportation Corridor Pilot (SETCP). The project installed fixed 
radiological portal monitors at weigh station facilities, however, due 
to the limitations of the fixed portal monitors, DNDO agreed to develop 
a mobile detector which was capable of being deployed at weigh 
stations, special event venues, intelligence driven locations, as well 
as used in patrol operations.
    In addition, the Florida Fish and Wildlife Conservation Commission 
(FWCC) Division of Law Enforcement also worked with the DNDO in 
developing a Small Craft Initiative in an attempt to interdict 
waterborne radiological/nuclear threats.
    In the fall of 2007, the DSOC recognized these efforts and created 
the Preventative Radiological/Nuclear Detection (PRND) Sub-Committee of 
the State Working Group's Operations and Plans Committee. In a 
collaborative effort between various Federal, State, and local 
partners, this group became the focus of the DNDO's Program Assistance 
pilot. The purpose of this pilot was to facilitate the development of a 
State-wide PRND Enterprise Model which would then be implemented in 
other States and territories.
    Over the next 2 years this group worked tirelessly to create 
Florida's PRND Strategy; its mission,`` . . . to protect the people, 
economy, and natural resources of Florida against threats posed by the 
unauthorized use of radiological and nuclear materials.''
    Some of the early challenges identified in the development of a 
State-wide PRND strategy were the procurement, training, and use of 
scientific equipment not previously used by law enforcement. If the 
procurement and cost associated with the acquisition of this 
specialized equipment wasn't enough of a challenge; maintaining the 
proficiency of officers assigned to use the equipment certainly was.
    Because this type of activity was relatively new to law enforcement 
in our State, a well-defined Concept of Operations (CONOPS) and 
operating and policies and procedures had to be created. We received 
input from DNDO and other entities which had been engaged in PRND 
operations and created a deeper integration of Florida's law 
enforcement, fire/rescue, emergency management, and Florida National 
Guard efforts to ensure that the PRND Program Goals would be met.
    Other important factors related to the development of a State-wide 
PRND strategy was the identification of resources, related to budget 
and staffing; as well as a State-wide equipment acquisition strategy. 
This ensured that all regional PRND needs were identified and met with 
common equipment in order to simplify logistical support, operational 
sustainment and training requirements. The acquisition strategy was 
defined and implemented to meet basic and specialized capabilities as 
well as defining requirements to provide for future technological 
insertion/upgrades to existing equipment.
    Training officers in the operation of specialized equipment has 
always been a factor when dealing with PRND capabilities. Historically 
this has been accomplished by having officers attend courses offered by 
the DHS. However, the individual jurisdictions must provide the 
training in the concept of operations (CONOPS) as well as the policies 
and procedures for a specific jurisdiction. Due to the high demand for 
the training and limited availability of courses offered, Florida's 
PRND Strategy identified and developed its own capabilities so that the 
training needs of Florida's agencies could be met promptly and with 
minimal travel required by the attendees. A training model was created 
utilizing the Florida College System in conjunction with the State's 
public-private workforce system; the DNDO and the Florida Department of 
Health's Bureau of Radiation Control provided assistance with the 
development of the training program and curricula integrity. Currently, 
Florida has a cadre of instructors certified by DHS, who have 
successfully trained hundreds of our officers throughout the State.
    Florida has a strong State-wide PRND strategy, built upon the 
foundation of our State's strategic plan and structure that encourages 
and facilitates multi-jurisdictional and multidisciplinary 
participation at all levels. We have shared our PRND strategy with 
other States and territories, to assist with their build-out efforts 
and solicit feedback on how it can be improved upon.
    As the Greek playwright Sophocles stated, ``Success is dependent on 
effort.'' Without the combined efforts, from our Federal, State, local, 
and territorial partners we cannot be successful with ensuring the 
continued success of our PRND mission.
    Thank you.

    Mr. Lungren. Thank you very much, Mr. Perez.
    Now Mr. Maurer, you are recognized for 5 minutes.

 STATEMENT OF DAVID C. MAURER, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Maurer. Thank you. Good morning, Chairman Lungren, 
Ranking Member Clarke, and other Members and staff. I am 
pleased to be here today to discuss our prior work examining 
DHS' efforts to combat nuclear smuggling.
    As you well know, preventing terrorists from carrying out a 
nuclear attack in the United States is a top National priority. 
To address this threat, DNDO has the lead in coordinating the 
Global Nuclear Detection Architecture or GNDA. This is a 
multidepartment effort to detect nuclear material in foreign 
countries, at the U.S. border and inside the United States 
before it can be used in an attack.
    Given the global span of this effort and the number of 
agencies involved, we have previously recommended that DHS 
develop a strategic plan that clearly spells out overall 
objectives, roles, and responsibilities, the resources 
necessary to meet those objectives, and mechanisms to assess 
progress along the way. My comments today are based on 
previously issued GAO work and focus on three key issues: DHS' 
efforts to develop a strategic approach, DHS' progress in 
deploying radiation detection equipment, and DHS' challenges in 
developing new technologies to detect radiation.
    On the first point there is encouraging news. In response 
to our prior work, DHS has developed a strategic plan for the 
GNDA. In December 2010 DNDO issued its plan, which defines the 
overall objectives and assigns missions to the various Federal 
entities. Earlier this year DNDO also issued its 
Congressionally-mandated annual review of GNDA activities. In 
tandem these documents show clear progress in addressing our 
prior recommendations.
    However, DNDO's plans to date do not discuss key elements 
for addressing gaps. Neither document clearly establishes the 
resources needed to meet the objectives. They also do not 
discuss strategies or time frames for addressing previously 
identified gaps in the domestic portion of the GNDA such as the 
land border areas between ports of entry and small maritime 
vessels.
    DNDO tells us they are working on an implementation plan 
that will address these key missing elements, and hopes to have 
that plan completed by the end of this year.
    On the second point, DHS' efforts to deploy radiation 
detection technology, the news is generally good. As we 
reported in June 2010, DHS has made significant progress and 
now scans nearly all cargo and vehicles entering the United 
States through ports of entry. Having the capability to detect 
radiation at the most commonly used official points into the 
United States is a major accomplishment.
    However, there are remaining gaps that still need to be 
addressed. DHS has made less progress scanning international 
rail, air cargo, and commercial aviation. Going forward it 
would be reasonable to expect DHS will pay greater attention to 
addressing these gaps, in part by developing and acquiring new 
technologies.
    Which brings me to my third point: DHS' efforts to develop 
new technologies. The news here has been bad for years. As we 
have reported numerous times, DNDO's efforts to develop 
enhanced technology to detect radiation have floundered.
    The ASP in CAARS program in particular have been plagued 
with significant problems with cost, performance, and lack of 
rigor and testing. Further, DNDO's focus on areas where the 
threat was already being addressed distracted them from 
addressing gaps in other portions of the GNDA.
    But that was the past. Director Stern's announcement this 
morning about the ASP program is encouraging, and hopefully 
sets the stage for mid-course corrections in the strategic 
direction of the GNDA.
    In addition, as I testified earlier this month, the 
problems with ASP in cars are symptomatic of broader DHS 
challenges in developing and acquiring new technologies to meet 
homeland security needs. DHS leadership is currently taking its 
steps to address the numerous problems we recorded in our prior 
work. But the key is execution. DHS needs to turn its plan into 
action to ensure that systems are delivered on time, within 
budget, and capable of meeting critical mission needs.
    This same theme applies to DNDO's recent strategic plan and 
promised implementation plan. Words on paper need to become 
concrete action to ensure priorities are identified, tasked, 
resourced, and executed.
    We are encouraged by DNDO's efforts to revamp a strategic 
approach, and hopefully it will take action to address all of 
our recommendations from our prior work. In doing so, DNDO will 
enhance the U.S. ability to address the critical threat of 
nuclear terrorism.
    Mr. Chairman, thank you for the opportunity to testify this 
morning. I look forward to your questions.
    [The statement of Mr. Maurer follows:]

                 Prepared Statement of David C. Maurer
                             July 26, 2011

 COMBATING NUCLEAR SMUGGLING.--DHS HAS DEVELOPED A STRATEGIC PLAN FOR 
       ITS GLOBAL NUCLEAR DETECTION ARCHITECTURE, BUT GAPS REMAIN
                              GAO-11-869T

    Chairman Lungren, Ranking Member Clarke, and Members of the 
subcommittee: We are pleased to be here today to discuss our past work 
examining the Department of Homeland Security's (DHS) progress and 
efforts in planning, developing, and deploying its global nuclear 
detection architecture (GNDA). The overall mission of the GNDA is to 
use an integrated system of radiation detection equipment and 
interdiction activities to combat nuclear smuggling in foreign 
countries, at the U.S. border, and inside the United States. Terrorists 
smuggling nuclear or radiological material into the United States could 
use these materials to make an improvised nuclear device or a 
radiological dispersal device (also called a ``dirty bomb''). The 
detonation of a nuclear device in an urban setting could cause hundreds 
of thousands of deaths and devastate buildings and physical 
infrastructure for miles. While not as damaging, a radiological 
dispersal device could nonetheless cause hundreds of millions of 
dollars in socioeconomic costs as a large part of a city would have to 
be evacuated--and possibly remain inaccessible--until an extensive 
radiological decontamination effort was completed. Accordingly, the 
GNDA remains our country's principal strategy in protecting the 
homeland from the consequences of nuclear terrorism.
    The GNDA is a multi-departmental effort coordinated by DHS's 
Domestic Nuclear Detection Office (DNDO).\1\ DNDO is also responsible 
for developing, acquiring, and deploying radiation detection equipment 
to support the efforts of DHS and other Federal agencies. Federal 
efforts to combat nuclear smuggling have largely focused on established 
ports of entry, such as seaports and land border crossings. However, 
DNDO has also been examining nuclear detection strategies along other 
potential pathways and has identified several gaps in the GNDA, 
including: (1) Land border areas between ports of entry into the United 
States; (2) international general aviation; and (3) small maritime 
craft, such as recreational boats and commercial fishing vessels. 
Developing strategies, technologies, and resources to address these 
gaps remains one of the key challenges in deploying the GNDA.
---------------------------------------------------------------------------
    \1\ Other departments and agencies contributing to the GNDA include 
the Departments of Energy, State, Defense, and Justice; the Office of 
the Director of National Intelligence; and the Nuclear Regulatory 
Commission.
---------------------------------------------------------------------------
    Even before DNDO's inception in 2005,\2\ we were highlighting the 
need for a more comprehensive strategy for nuclear detection. In 2002, 
we reported on the need for a comprehensive plan for installing 
radiation detection equipment, such as radiation portal monitors, at 
all U.S. border crossings and ports of entry.\3\ We reported that this 
plan should: (1) Address vulnerabilities and risks; (2) identify the 
complement of radiation detection equipment that should be used at each 
type of border entry point--air, rail, land, and sea--and whether 
equipment could be immediately deployed; (3) identify longer-term 
radiation detection needs; and (4) develop measures to ensure that the 
equipment is adequately maintained. More recently, in July 2008, we 
testified that DNDO had not developed an overarching strategic plan and 
recommended that DHS coordinate with the Departments of Defense, 
Energy, and State to develop one.\4\ In January 2009, we recommended 
that the Secretary of Homeland Security develop a strategic plan for 
the domestic part of the global nuclear detection strategy to help 
ensure the success of initiatives aimed at closing gaps and 
vulnerabilities in the United States.\5\ We stated that this plan 
should focus on, among other things, establishing time frames and costs 
for the three gaps DNDO had identified--land border areas between ports 
of entry, aviation, and small maritime vessels. DHS agreed with the 
recommendation that we made in our 2008 testimony on the need for an 
overarching strategic plan to guide future efforts to combat nuclear 
smuggling and move toward a more comprehensive global nuclear detection 
strategy. DHS did not comment on our 2009 recommendation to develop a 
plan for the domestic portion of the GNDA but noted that it aligned 
with DNDO's past, present, and future actions.
---------------------------------------------------------------------------
    \2\ National Security Presidential Directive 43/Homeland Security 
Presidential Directive 14, Domestic Nuclear Detection, April 15, 2005. 
DNDO was established in statute by the Security and Accountability for 
Every Port Act of 2006 (SAFE Port) Act, Pub. L. No. 109-347,  501 
(codified at 6 U.S.C.  591-596a).
    \3\ GAO, Customs Service: Acquisition and Deployment of Radiation 
Detection Equipment, GAO-03-235T (Washington, DC: Oct. 17, 2002).
    \4\ GAO, Nuclear Detection: Preliminary Observations on the 
Domestic Nuclear Detection Office?'s Efforts to Develop a Global 
Nuclear Detection Architecture, GAO-08-999T (Washington, DC: July 16, 
2008).
    \5\ GAO, Nuclear Detection: Domestic Nuclear Detection Office 
Should Improve Planning to Better Address Gaps and Vulnerabilities, 
GAO-09-257 (Washington, DC: Jan. 29, 2009).
---------------------------------------------------------------------------
    As we will discuss today, some progress has been made, but DHS and 
other Federal agencies have yet to fully address gaps in the global 
nuclear detection architecture. Specifically, this testimony discusses 
DHS's efforts to: (1) Address our prior recommendations to develop a 
strategic plan for the GNDA, including developing strategies to prevent 
smuggling of nuclear or radiological materials via the critical gaps 
DNDO identified, (2) complete the deployment of radiation detection 
equipment to scan all cargo and conveyances entering the United States 
at ports of entry, and (3) develop new technologies to detect nuclear 
or radioactive materials.
    This testimony is based on our prior work on U.S. Government 
efforts to detect and prevent the smuggling of nuclear and radiological 
materials issued from October 2002 through September 2010. We updated 
this information in July 2011 to reflect DHS's efforts to address our 
prior recommendations by meeting with DNDO officials and reviewing 
recent DNDO documents, such as the 2010 GNDA Strategic Plan and the 
2011 GNDA Joint Annual Interagency Review.\6\ Our comments on DNDO's 
efforts to develop new technologies to detect nuclear material are 
based on our prior work on DHS's progress and challenges developing and 
acquiring new technologies issued from May 2009 through July 2011. 
Details on the scope and methodology for those reviews are available in 
our published reports.\7\ We conducted this work in accordance with 
generally accepted Government auditing standards.
---------------------------------------------------------------------------
    \6\ The Global Nuclear Detection Architecture Joint Annual 
Interagency Review 2011 was produced by DNDO in response to Section 
1103 of the ``Implementing Recommendations of the 
9/11 Commission Act of 2007'' (Pub. L. No. 110-53), which mandates a 
Joint Annual Interagency Review of the GNDA and the joint submission of 
a report on that review to the President and specified Congressional 
Committees by the Secretaries of Homeland Security, State, Defense, 
Energy; the Attorney General; and the Director of National 
Intelligence.
    \7\ See a list of related GAO products at the end of this 
statement.
---------------------------------------------------------------------------
    In summary, since December 2010, DNDO has issued both a strategic 
plan to guide the development of the GNDA and an annual report on the 
current status of the GNDA. The new strategic plan addressed some key 
components of what we previously recommended be included in a strategic 
plan, such as identifying the roles and responsibilities for meeting 
strategic objectives. However, neither the plan nor the annual report 
identifies funding needed to achieve the strategic plan's objectives or 
employs monitoring mechanisms to determine programmatic progress and 
identify needed improvements. DHS officials informed us that they will 
address these missing elements in an implementation plan, which they 
plan to issue before the end of this year.
    As we reported in September 2010, DHS has made progress in 
deploying both radiation detection equipment and developing procedures 
to scan cargo entering the United States through land and sea ports of 
entry for nuclear and radiological materials.\8\ For example, according 
to DHS officials, the Department scans nearly 100 percent of the cargo 
and conveyances entering the United States through land borders and 
major seaports. However, as we reported in July 2011, DHS has 
experienced challenges in developing new technologies to detect nuclear 
and radiological materials, such as developing and meeting key 
performance requirements.\9\ DHS has plans to enhance its development 
and acquisition of new technologies, although it is still too early to 
assess their impact on addressing the challenges we identified in our 
past work.
---------------------------------------------------------------------------
    \8\ GAO, Combating Nuclear Smuggling: Inadequate Communication and 
Oversight Hampered DHS Efforts to Develop an Advanced Radiography 
System to Detect Nuclear Materials, GAO-10-1041T (Washington, DC: Sept. 
15, 2010).
    \9\ GAO, Homeland Security: DHS Could Strengthen Acquisitions and 
Development of New Technologies, GAO-11-829T (Washington, DC: July 15, 
2011).
---------------------------------------------------------------------------
   DHS HAS DEVELOPED A STRATEGIC PLAN FOR GNDA, BUT IT DOES NOT YET 
                DISCUSS KEY ELEMENTS FOR ADDRESSING GAPS

    In our past work on GNDA, we made recommendations about the need 
for a strategic plan to guide the development of the GDNA. Among other 
things, in July 2008, we recommended that DHS develop an overall 
strategic plan for the GNDA that: (1) Clearly defines the objectives to 
be accomplished, (2) identifies the roles and responsibilities for 
meeting each objective, (3) identifies the funding necessary to achieve 
those objectives, and (4) employs monitoring mechanisms to determine 
programmatic progress and identify needed improvements.\10\ In January 
2009, we also recommended that DHS develop strategies to guide the 
domestic aspects of the GNDA including establishing time frames and 
costs for addressing previously identified gaps in the GNDA--land 
border areas between ports of entry, international general aviation, 
and small maritime vessels.\11\ DHS concurred with our 2008 
recommendation to develop an overall strategic plan and did not comment 
on our 2009 recommendation to develop a plan for the domestic portion 
of the GNDA, but noted that it aligned with DNDO's past, present, and 
future actions.
---------------------------------------------------------------------------
    \10\ GAO-08-999T.
    \11\ GAO-09-257.
---------------------------------------------------------------------------
    In December 2010, DNDO issued a strategic plan for the GNDA. The 
strategic plan establishes a broad vision for the GNDA, identifies 
cross-cutting issues, defines several objectives, and assigns mission 
roles and responsibilities to the various Federal entities that 
contribute to the GNDA. For example, the Department of Energy has the 
lead for several aspects of enhancing international capabilities for 
detecting nuclear materials abroad, DHS has the lead for detecting 
nuclear materials as they cross the border into the United States, and 
the Nuclear Regulatory Commission has the lead on reporting and sharing 
information on lost or stolen domestic radiological material. In 
addition, earlier this year, DNDO released the Global Nuclear Detection 
Architecture Joint Annual Interagency Review 2011. This review 
describes the current status of GNDA and includes information about the 
multiple Federal programs that collectively seek to prevent nuclear 
terrorism in the United States.
    However, neither the strategic plan nor the 2011 interagency review 
identifies funding needed to achieve the strategic plan's objectives 
nor establishes monitoring mechanisms to determine programmatic 
progress and identify needed improvements--key elements of a strategic 
plan that we previously identified in our recommendations. Furthermore, 
while the plan and the 2011 interagency review discuss previously 
identified gaps in the domestic portion of the architecture, neither 
discusses strategies, priorities, time frames, or costs for addressing 
these gaps.
    In our view, one of the key benefits of a strategic plan is that it 
is a comprehensive means of establishing priorities, and using these 
priorities to allocate resources so that the greatest needs are being 
addressed. In times of tight budgets, allocating resources to address 
the highest priorities becomes even more important. Accordingly, while 
DNDO's new strategic plan represents an important step forward in 
guiding the development of the GNDA, DNDO could do more to articulate 
strategies, priorities, time frames and costs in addressing gaps and 
further deploying the GNDA in order to protect the homeland from the 
consequences of nuclear terrorism. In discussing these issues with DHS 
officials, they indicated that they will be producing a GNDA 
implementation plan later this year that will address several of these 
issues.

    DHS CONTINUES TO MAKE PROGRESS IN DEPLOYING RADIATION DETECTION 
                               EQUIPMENT

    As we reported in June 2010, DHS has made significant progress in 
deploying both radiation detection equipment and developing procedures 
to scan cargo and conveyances entering the United States through fixed 
land and sea ports of entry for nuclear and radiological materials, 
deploying nearly two-thirds of the radiation portal monitors identified 
in its deployment plan. According to DHS officials, the Department 
scans nearly 100 percent of the cargo and conveyances entering the 
United States through land borders and major seaports. However, as we 
reported, DHS has made less progress scanning for radiation in: (1) 
Railcars entering the United States from Canada and Mexico; (2) 
international air cargo; and (3) international commercial aviation 
aircraft, passengers, or baggage.

Fixed Land and Sea Ports of Entry
    According to DHS officials, since November 2009, almost all non-
rail land ports of entry have been equipped with one or more radiation 
detection portal monitors and 100 percent of all cargo, conveyances, 
drivers, and passengers driving into the United States through 
commercial lanes at land borders are scanned for radiation, as are more 
than 99 percent of all personally operated vehicles (non commercial 
passenger cars and light trucks), drivers, and passengers. Similarly, 
at major seaports, according to DHS officials, the Department scans 
nearly all containerized cargo entering U.S. seaports for nuclear and 
radiological materials. DHS has deployed radiation portal monitors to 
major American seaports that account for the majority of cargo entering 
the United States. However, some smaller seaports that receive cargo 
may not be equipped with these portal monitors. DHS officials stated 
that current deployment plans have been in place to address all the 
remaining gaps in the deployment of portal monitors to seaports but 
that current and future budget realities require a re-planning of the 
deployment schedule.

International Rail
    DHS has made much less progress scanning international rail. As we 
reported in June 2010, there is limited systematic radiation scanning 
of the roughly 4,800 loaded railcars entering the United States each 
day from Canada and Mexico. Much of the scanning for radioactive 
materials that takes place at these ports of entry is conducted with 
portable, handheld radioactive isotope identification devices. 
According to DHS officials, international rail traffic represents one 
of the most difficult challenges for radiation detection systems due to 
the nature of trains and the need to develop close cooperation with 
officials in Mexico and Canada. In addition, DHS officials told us that 
rail companies resist doing things that might slow down rail traffic 
and typically own the land where DHS would need to establish stations 
for primary and secondary screening. DHS is in the early stages of 
developing procedures and technology to feasibly scan international 
rail traffic.

International Air Cargo and Commercial Aviation
    As we reported in 2010, DHS is in the early stages of addressing 
the challenges of scanning for radioactive materials presented by air 
cargo and commercial aviation. DHS officials are also developing plans 
to increase their capacity to scan for radioactive materials in 
international air cargo conveyed on commercial airlines. DHS officials 
stated that their experience in scanning air cargo at a few major 
international airports in the United States has helped them develop 
scanning procedures and inform current and future deployment strategies 
for both fixed and mobile radiation detection equipment. These 
officials said that they believe that further operational experience 
and research is necessary before they can develop practical mobile 
scanning strategies and procedures. DHS is also developing plans to 
effectively scan commercial aviation aircraft, passengers, and baggage 
for radioactive materials.

DHS HAS HAD DIFFICULTY IN DEVELOPING NEW TECHNOLOGIES TO DETECT NUCLEAR 
                               MATERIALS

    Since 2006, we have reported that DHS faces difficulties in 
developing new technologies to detect nuclear and radiological 
materials. Specifically, we have reported on long-standing problems 
with DNDO's efforts to deploy advanced spectroscopic portal (ASP) 
radiation detection monitors. The ASP is a more advanced and 
significantly more expensive type of radiation detection portal monitor 
to replace the polyvinyl toluene (PVT) portal monitors in many 
locations that the Customs and Border Protection (CBP), an agency 
within DHS, currently uses to screen cargo at ports of entry. We have 
issued numerous reports regarding problems with the cost and 
performance of the ASPs and the lack of rigor in testing this 
equipment. For example, we found that tests DNDO conducted in early 
2007 used biased test methods that enhanced the apparent performance of 
ASPs and did not use critical CBP operating procedures that are 
fundamental to the performance of current radiation detectors.\12\ In 
addition, in 2008 we estimated the life cycle cost of each standard 
cargo version of the ASP (including deployment costs) to be about 
$822,000, compared with about $308,000 for the PVT portal monitor, and 
the total program cost for DNDO's latest plan for deploying radiation 
portal monitors to be about $2 billion.\13\ Based in part on our work, 
DHS informed this committee in February 2010, after spending over $280 
million, that the Department had scaled back its plans for the 
development and use of ASP technology.
---------------------------------------------------------------------------
    \12\ GAO, Combating Nuclear Smuggling: Additional Actions Needed to 
Ensure Adequate Testing of Next Generation Radiation Detection 
Equipment, GAO-07-1247T (Washington, DC: Sept. 18, 2007).
    \13\ GAO, Combating Nuclear Smuggling: DHS's Program to Procure and 
Deploy Advanced Radiation Detection Portal Monitors Is Likely to Exceed 
the Department's Previous Cost Estimates, GAO-08-1108R (Washington, DC: 
Sept 22, 2008).
---------------------------------------------------------------------------
    In September 2010, we also reported that DNDO was simultaneously 
engaged in the research and development phase while planning for the 
acquisition phase of its cargo advanced automated radiography system 
(CAARS) to detect certain nuclear materials in vehicles and containers 
at CBP ports of entry.\14\ DNDO pursued the deployment of CAARS without 
fully understanding that it would not fit within existing inspection 
lanes at ports of entry and would slow down the flow of commerce 
through these lanes, causing significant delays. DHS spent $113 million 
on the program since 2005 and cancelled the acquisition phase of the 
program in 2007. As we reported in September 2010, no CAARS machines 
had been deployed, and CAARS machines from various vendors were either 
disassembled or sitting idle without being tested in a port 
environment.
---------------------------------------------------------------------------
    \14\ GAO-10-1041T.
---------------------------------------------------------------------------
    DNDO's problems developing the ASP and CAARS technologies are 
examples of broader challenges DHS faces in developing and acquiring 
new technologies to meet homeland security needs. Earlier this month, 
we testified that DHS has experienced challenges managing its multi-
billion-dollar acquisition efforts, including implementing technologies 
that did not meet intended requirements and were not appropriately 
tested and evaluated, and has not consistently completed analysis of 
costs and benefits before technologies were implemented.\15\ In June 
2011, DHS reported to us that it is taking steps to strengthen its 
investment and acquisition management processes across the Department. 
For example, DHS plans to establish a new model for managing 
Department-wide investments, establish new councils and boards to help 
ensure that test and evaluation methods are appropriately considered, 
and is working to improve the quality and accuracy of program cost 
estimates. As we testified, we believe these are positive steps and, if 
implemented effectively, could help the Department address many of its 
acquisition challenges. However, it is still too early to assess the 
impact of DHS's efforts to address these challenges. Going forward, we 
believe DHS will need to demonstrate measurable, sustained progress in 
effectively implementing these actions.
---------------------------------------------------------------------------
    \15\ GAO-11-829T.
---------------------------------------------------------------------------
    Chairman Lungren, Ranking Member Clarke, and Members of the 
subcommittee, this concludes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

    Mr. Lungren. Thank you very much, Mr. Maurer.
    Thank all of you for your testimony. We appreciate not only 
the testimony, but the work that it reveals.
    I will now recognize myself for 5 minutes of questions and 
then we will proceed with other panelists.
    Mr. Stern, the ASP program, you mentioned that it does not 
seem to work very well. Yet we have 13 of the systems that you 
are going to put out there. If it does not work, why are we 
putting it out there? Are you telling us it works for a limited 
purpose?
    Also you mentioned the handheld utilizing new material that 
was not available until very recently. Is there any adaptation 
of that material to the larger monitors such that you know 
trucks can go through them as opposed to handheld? Because we 
have all talked about the labor-intensive nature of the 
handheld, the difficulty in getting around and checking the 
entire cargo and so forth.
    Mr. Stern. Yes. Thank you. I appreciate the question.
    The decision on ASP was a very difficult one. As you know 
over the years a significant amount of money has been invested 
in the ASP.
    When I came to be director of DNDO I looked at the ASP 
program and since then two key things have occurred. One is we 
have our National Academies of Science report that suggests 
that our testing in the past was not optimum. The second is in 
working in field validation with the user, we discovered that 
the requirement that had been agreed at the beginning for the 
speed passing through it is no longer valid. So, we had to make 
a course correction.
    Now, that course correction involves many elements. Your 
specific question is about the 13 ASP systems that we have and 
whether we are testing them. The answer is no, we are not 
testing them for the purpose of going forward.
    We have these 13 systems billed and paid for. Four of them 
are already in the field. We are using them so that we can 
learn from them so that users in the field can understand what 
a spectroscopic portal can do for them generically. They can 
help define their requirements for some future commercial 
competition.
    For us at the technical level, there is a big need if we 
are going to move to the model-test-model approach recommended 
by the National Academies of Science. There is a big need for 
being able to model the stream of commerce and the radiation 
that is in the environment.
    So, again, these systems have been paid for. There is some 
additional cost in actually deploying them. But the benefit to 
making the best use of the money that we have invested, of 
learning technically from them that the data will go forward, 
as well as users defining their need, I think are worthwhile 
applications for the existing systems.
    Mr. Lungren. The whole reason we were developing the ASP is 
that we thought that the PVT program was not sufficient. Have 
we discovered ways to make the PVT programs more efficient? How 
do we sort of integrate that with the secondary screening? Are 
there inefficiencies that we have been able to work ourselves 
through?
    Even though with the handheld that you have there, we still 
have the question of the labor-intensiveness of that. So how do 
you integrate that with the existing PVTs?
    Mr. Stern. Yes. Well, thank you for the question. This is 
right on target.
    The ways we are going to mitigate the loss of the ASP 
include an enhanced program for improving the PVTs. Now, the 
PVTs can do some degree of efficient analysis of radiation 
environment, but not nearly as much as spectroscopic portals.
    So, we have an on-going program to improve the ability of 
the PVT to effectively identify radiation that is in the stream 
of commerce. That is actually going quite well. But I do not 
want to mislead you. A PVT is never going to be as effective in 
identifying nuclear material as a spectroscopic portal.
    The handheld with the advanced concept of operation will 
help to identify new nuclear material. It obviously will not be 
as, again, effective as the large portal because size matters. 
But the--with the enhanced material we think we are making 
America safer by putting these out, but they are next.
    I wanted to respond to your first question of whether we 
could make a portal out of the material that is in this device. 
In theory you can. I mean, there are challenges in building--in 
making large crystals. But the fundamental answer is when we 
go, when we are ready and when Congress is ready for us to look 
at commercial portals, spectroscopic portals, this material may 
be part of that portal structure in the commercial sector, or 
it may not be. We will have to see.
    Right now spectroscopic portals are really made of one or 
two different materials, and not the materials in this device. 
But you know when we put out our requirements that will be 
well-defined over the next year. It may be that the commercial 
sector may decide that this material is--lanthanum bromide is 
an effective portal material. But we will have to see. It is 
the marketplace.
    Mr. Lungren. Do we still have problems with false 
positives?
    Mr. Stern. False positives will always be an issue. The 
more efficient a detector and effective a detector and the 
larger the detector you have, the less you will have.
    Mr. Lungren. Was that not one of the reasons we thought ASP 
would be better than the PVT?
    Mr. Stern. Yes. It is.
    Mr. Lungren. Okay.
    The Chairman recognizes Ms. Clarke for questions.
    Ms. Clarke. Good morning. Mr. Stern, I just wanted to do a 
little follow-up on the whole issue of the ASP. With the 13 
systems out there are you making an additional budget request 
to Secretary Napolitano to continue the use of these 13 
systems? Were there any types of contractual obligations of the 
vendor to recoup any of the funds paid in the event that the 
systems were not working?
    Mr. Stern. I will have to check back on the contractual 
obligations. Our contract with the vendor has expired as of 
this month. Of last month, I am sorry. So, I do not believe 
there are any on-going contractual obligations.
    Again, we will put the 13 systems in use that we have 
already paid for, and learn from them for the future.
    Ms. Clarke. Okay. Had there been a budgetary request of the 
Secretary for the maintenance of the deployment of the 13?
    Mr. Stern. Yes. There has not yet been a budgetary request. 
That will be in the future, and we will need to work with OMB 
to examine exactly how that maintenance will be--or the data 
collection will be funded.
    Relative to the cost of this program, it will be quite 
small. Again, the costs of this program have primarily been 
invested prior to 2009.
    Ms. Clarke. Okay.
    Mr. Maurer, as a follow-up, your agency has done extensive 
investigation into the ASP systems. What is your initial 
reaction to this news? What questions would you have from GAO's 
perspective?
    Mr. Maurer. Sure. Thank you.
    I think my initial reaction to it was it helps turn the 
page for DNDO and the Department. This has been a troubling 
chapter for them for many years. It is good to see that they 
are sort of moving on.
    It gives them also the opportunity to focus more broadly on 
the GNDA as a whole, rather than become fixated on ASP. So, I 
think it is good from that perspective.
    More specifically, the plan to potentially deploy 13 of 
these systems to allow them to be used in real-world settings, 
we think that that sounds like a reasonable approach. I mean, 
obviously we have not looked into all the details.
    But it does seem to address one of the fundamental concerns 
we have had over the years with DHS in that they have struggled 
sometimes in defining clear requirements for acquisition 
systems, including ASPs, as with many others. So, they can get 
better real-world information how this kind of system could be 
used, it could help make better decisions later down the road 
for future technologies.
    Obviously the key caveat there is we would not want to see 
the continued fixation on the ASP program to the detriment of 
all the other aspects of the GNDA.
    Ms. Clarke. Thank you.
    Mr. Pavetto and Mr. Stern, the Advanced Research Initiative 
is a joint DNDO-National Science Foundation program that seeks 
novel cross-cutting research.
    I read recently that researchers at Fisk University and 
Wake Forest University have partnered to develop certain 
crystals that can be used to detect nuclear threats, and this 
research came through a $900,000 grant from the Office of 
Nuclear Proliferation R&D of the National Security--National 
Nuclear Security Administration. Can you explain the importance 
of promoting research of this kind throughout our Nation's 
universities?
    Mr. Stern. Sure. I will start. Fundamentally we are at a 
state in detector technology that is a little bit ahead of 
where we were 40 years ago. Detectors are bigger, they are more 
efficient, they are better able to identify threats. But they 
are nowhere as near the physical limits of where they can be.
    To move in that direction in a serious way we need 
dedication, discipline, and focus. We need basic research. Some 
of that basic research has to be done at laboratories.
    We at DNDO--I mean at the universities and laboratories 
using the ARI program and other programs in DNDO we have 
already produced new material that can help move forward into 
the future that, for example, can help first responders and 
policemen and firemen by allowing them to identify and detect 
certain types of radiation you know with handheld devices they 
could not have a few years ago.
    So, supporting basic research as well as more advanced 
research and development is an essential part of making America 
safer and preventing a nuclear attack.
    Ms. Clarke. Thank you.
    Mr. Pavetto, just quickly.
    Mr. Pavetto. Thank you for the question. Yes, I will be 
very quick.
    In addition to developing new technologies, in part because 
of the aging nature of our technical capability what we are 
doing is training the next--you know the next generation of 
scientists, engineers, and folks who can lend their expertise 
and their creative abilities to solving the problems that come 
up in the future.
    Ms. Clarke. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Lungren. Gentlelady yields back.
    Now the baseball ringer for the Democratic Party, the one 
who hit his arm until he got out on the field, Mr. Richmond, is 
recognized for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman. Every once in a 
while somebody gets lucky, so I just had a lucky day.
    Mr. Lungren. For nine innings?
    Mr. Richmond. Extremely lucky day.
    I just have--and to Mr. Stern, just a quick question. As we 
look at this, and I am trying to look at it from a 
comprehensive level as a Congressman who represents an area 
that has five of the largest 15 cargo ports in the United 
States, and the largest port complex in the world.
    What we heard from our city and our leaders in New Orleans 
was that we were just cut from I believe it was the UASI grant 
program to help us in security. So, how do I reconcile the fact 
that we get cut on one hand, and then read your testimony and 
listen to the testimony where we talk about how important ports 
are in making sure that radioactive and nuclear devices do not 
come into our country?
    So, I am having a hard time reconciling that. Not to 
mention that with three trade agreements on tap for sometime 
this year that could also increase the number of cargo that 
comes into the Port of New Orleans. It is kind of hard to do 
that. Maybe you can help me do that.
    Mr. Stern. Yes. I cannot speak in detail to the UASI grant 
process as it is not within DNDO's focus. But, I mean 
fundamentally, we are being cut in many places. That presents 
challenges, which forces us to prioritize. This is actually one 
of the key reasons I think that in my testimony and in other 
times have talked about a new form of architecture, a surge 
architecture that is more economically, financially efficient.
    It is unfortunate that we have to make certain cuts. At 
DNDO we work with State and locals to try and make sure that 
they understand the threats and the risks and how to approach 
grant applications and things like that. So, we try and bring 
the greatest force possible and the greatest forces available 
to nuclear detection. But there are sometimes bigger forces 
that affect all of us.
    Mr. Richmond. In terms of risk assessment or probability of 
where a device or products or ingredients would come from, 
where does ports or seawater, where does that rank in terms of 
the likelihood of being used to get one of these devices into 
the United States?
    Mr. Stern. Yes. There are various models that look at this. 
We have what is called the rentra process to examine different 
pathways into the United States.
    Ports will always be an important element because they are 
an opportunity to constrain your adversary. So, the best that 
we can do at ports, and perhaps what we are doing now, is to 
ensure that they are good enough to deter the adversary from 
using those ports.
    I think even on a smaller scale, and for example at New 
York City they use a similar approach in the sense that the 
best you can do is make that pathway more difficult than any 
other pathway. I think we are accomplishing that at ports.
    Mr. Richmond. If anyone else wanted to comment on it, you 
very well can because I would be interested in hearing your 
information.
    If not, Mr. Chairman, I will yield back.
    Mr. Lungren. Thank you.
    Okay. We have time for a second round.
    I want to--I do not want to just focus on the ports, but if 
you know anything about the ports, if anybody knows anything 
about the ports you realize the tremendous challenge that is 
there with the--I mean the size of our cargo ships. I think you 
have--I think if I am not mistaken--I hope I do not get this 
wrong. I think it is like 8,000 cargo equivalents can be--units 
can be on a single ship. I mean it is enormous.
    So the challenge of course is with all those opportunities 
for someone to do mischief, both bringing something into the 
port by way of truck, but also when it is delivered from 
overseas, the importance of being able to scan these things, to 
screen these things in an efficient manner is huge. That is why 
I keep coming back to the handheld.
    That is great that we have the new material and that it can 
be used and so forth. But when you look at the magnitude of the 
challenge with these thousands of cargo units coming in, it 
just seems to me that while we do not want to fixate on the 
ASP, the program that has just been cancelled. I call it 
canceled; I realize you still got the 13.
    The efficiency would require us to come up with something 
which allows us to do something more effectively with those 
that are not handheld. Is it that we just do not have the 
technology to do that? That the technological challenge has 
proven to be too much?
    I guess I would ask you what is the fundamental problem 
with the program that we spent so much money and time on that 
you have now basically cancelled?
    Mr. Stern. Okay. Thank you for the question.
    The fundamental problem, if it is a problem, is that we 
have had a number of setbacks. In the interim in the commercial 
sector companies have developed a number of portals that again 
are commercially available. With that, and the challenges that 
I described earlier, it is my view and the Department's view 
that it does not make sense to proceed as we have been 
proceeding, but instead to take a step back and say the world 
has changed.
    The amount of money that were invested many years ago were 
invested and there is nothing we can do about that. But we need 
to show leadership and make a core decision that makes the best 
use of American dollars----
    Mr. Lungren. So, you are not giving up on the idea of 
portal monitors being something that we can improve in the 
future. But perhaps there is alternative ways of solving that 
problem.
    Mr. Stern. Exactly. No question that I believe that at some 
point in the future America will have a next generation 
spectroscopic system. I think the decision today is that it 
does not have to be a system that--the specific system we have 
been working on.
    Now, it may be when we open this up to commercial 
competition, it may be that that company will decide to 
compete, and it may be that they win.
    Mr. Lungren. Okay.
    Mr. Stern. We cannot prejudge that. But--and eventually we 
will have to replace the PVTs also.
    Mr. Lungren. Mr. Daddario, especially for the interior 
layer, the local and State agencies do much that the GNDA would 
rely on in terms of detecting the movement of smuggling nuclear 
radiological materials. Yet, as I understand it the GNDA 
Strategic Plan addresses only the activities of the Federal 
agencies, unless I am mistaken on that.
    Did your agency--city--police department participate in the 
development of the GNDA Strategic Plan? How have any of the 
Federal agencies with which you work solicited your comment on 
input on the role and responsibilities identified within the 
GNDA Strategic Plan?
    Mr. Daddario. Mr. Chairman, I do not believe that we 
participated in the development of the plan. However, we do 
work closely with DNDO as part of Securing the Cities to create 
a strategy or an architecture, to use the word I think that 
commonly employed, for the protection of local areas, in our 
case New York City and the surrounding communities. But we were 
not involved in the development of the GNDA itself.
    Mr. Lungren. Does that cause you any concern? In other 
words, do you think there is something that you and your 
department could contribute to the implementation, if not the 
development of the GNDA?
    Mr. Daddario. We always think we can offer something 
useful. I would be concerned, except for the fact that we are 
working so closely and I think effectively now with DNDO on the 
Securing the Cities program that the fact that there is the 
plan, the GNDA plan that was created separately is really not 
of concern to me.
    My--our concern at the police department is: Do we have the 
assistance of the Federal Government in supporting our 
objectives? I think we do have that.
    Mr. Lungren. Thank you very much.
    At this time I recognize the gentlelady from California, 
Ms. Richardson, for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman.
    Good morning, everyone, and thank you for being here in 
your service. Just a couple of questions that I would like to 
focus on; it seems as if we are still continuing to have 
problems with international air cargo. Our progress has not 
been as great as we would like.
    Why has not DHS simply deployed sufficient PVTs and RIIDs 
to scan baggage and passengers at airports as you already do at 
land border crossings?
    Mr. Stern. I am assuming that question is for me. Yes, we 
do have challenges in international air cargo. Each airport, 
unlike ports, is defined--are created very differently.
    So, it is very hard to come up with a generic approach. Of 
course we have to find where a PVT effectively fit. So, we have 
not yet gotten to the point where we can define a localized 
architecture for an airport for commercial cargo.
    I will take this just quickly as an opportunity to state, 
the way I am looking at the architecture, and the way we are 
looking at the architecture now is very differently than we 
looked at the architecture a year ago. When I came in we were 
looking at a very static architecture.
    But as an engineer and a physicist I know that technically 
and financially that is not achievable. So we are looking at 
the ability to surge assets in response to specific threats. We 
will be looking at air cargo in the same way.
    Ms. Richardson. Okay.
    My next question is both the Chairman and I happen to come 
by way of California. My question is: Why has DHS made so 
little progress on systematically scanning railcars entering 
the United States from Mexico and Canada for nuclear and 
radiological materials?
    You have told GAO that the rail companies can be difficult 
to deal with, and that this is a part of the reason for the 
lack of progress. What exactly are the rail companies' 
concerns? Is there anything this committee can do to help 
resolve the problem?
    Mr. Stern. I have to say I am not familiar with that 
particular statement regarding the rail companies. But rail, as 
air cargo, does present a particular issue on a day-to-day 
basis because of the way trains operate.
    In a sense, in an approach that relies on looking at trains 
on a day-to-day basis. On a day-to-day basis it is going to be 
very difficult to convince companies that are making a profit 
to stop their trains, for example, so that we can effectively 
measure their radiation.
    But again, if we look at this new surge concept that when 
there is intelligence, when there is a threat, when there is a 
reason to act, we will have greater flexibility in the steps 
that we take to scan, for example, trains or air cargo. I think 
we will come up with a very different solution and approach.
    Ms. Richardson. Okay. Let me be more specific. Do you have 
a process with screening at the railcars currently?
    Mr. Stern. No----
    Ms. Richardson. With the various----
    Mr. Stern. We have a program called IRAIL to try and find a 
solution to the problem. We do not have yet a process to scan 
railcars.
    Ms. Richardson. When do you expect to have that?
    Mr. Stern. When do--I cannot give you a date right now 
because, again, we are reevaluating the way that we look at the 
architecture. The scanning that we do on a day-to-day basis 
will be different from the scanning that we do when there is a 
high-end threat.
    Ms. Richardson. Sir, are we talking about a year? Two 
years? Five years?
    Mr. Stern. Years.
    Ms. Richardson. Years.
    Mr. Stern. Not months, if that is the question.
    Ms. Richardson. Are you working with the industry 
themselves at this point?
    Mr. Stern. I do not know. I will have to get back to you on 
that.
    Ms. Richardson. Who handles this area?
    Mr. Stern. It is an element within DNDO.
    Ms. Richardson. Okay. But who is responsible?
    Mr. Stern. I am.
    Ms. Richardson. Okay. So, you will get back to the 
committee on this information.
    Mr. Stern. Yes, I will provide full detail.
    Ms. Richardson. Okay.
    Mr. Chairman, I yield back.
    Mr. Lungren. Gentlelady yields back.
    The Ranking Member's recognized for 5 minutes, second 
round.
    Ms. Clarke. Thank you, very much, Mr. Chairman.
    Let me just ask that you also get back with us regarding 
the contract on the ASP and whether there is anyway to recoup 
any dollars. We are just trying to find money wherever we can.
    Let me say that as a native New Yorker how proud I am, Mr. 
Daddario, of the work that the New York City Police Department 
has been doing with its partners. Certainly this development of 
the wireless technology capability that you have talked about 
is extraordinary. You are to be commended for your pursuit of 
various technologies that could help not only our city, but 
cities across the Nation.
    I have been a fervent supporter of the Securing the Cities 
Initiative along with our full Chairman, Mr. Thompson. We have 
worked very closely to preserve as much as we can the funding 
because we think that, as you have been able to demonstrate, 
with a focused support we can provide other municipalities and 
areas around the Nation with technologies that can be of 
assistance to them as well in protecting our Nation.
    Let me ask: How successful as the STC program been in the 
New York City region? How much of that success depends upon 
coordination and cooperation between State and local partners? 
I am concerned about the partnership aspect of this.
    Mr. Stern, if you could add also.
    Mr. Daddario. First, Congresswoman, thank you for your kind 
remarks about the police department and your support for the 
STC program.
    Coordination is essential for the success of this program. 
I think that what the police department and its partners have 
been able to do here is really unprecedented. We have put 
together really a community of law enforcement and public 
safety agencies working toward a common purpose, and I think 
very effectively is borne out in the April exercise.
    But there is more to it than that. It is the way we have 
developed the system is to use at its core a network, and that 
is the--which Lower Manhattan Security Initiative and the 
control center. I would like to invite any member of the 
committee who would like to come and visit it to do so.
    The network allows data from all kinds of sensors including 
cameras and radiation detectors to come to a common point and 
to be reviewed and the data to be collected and be subject to 
analysis. I think there is no other system like that anywhere.
    With the development and the rolling out of the wireless 
capability we will be able to get enormous amounts of data, 
which I think will be useful to DNDO to assess the 
effectiveness of equipment, and to help figure out ways to both 
improve it and to improve the way in which it is deployed. 
There may be solutions, innovative solutions to the detection 
of radiological sources moving through time and space that will 
become apparent once this data is analyzed.
    So, that is something we really want to be able to work 
closely with Dr. Stern and his people on. I know Dr. Stern has 
invited us to meet with his researchers, and I think that is a 
very good step and a strong sign of the good partnership we 
have with the Federal Government.
    Mr. Stern. Yes, just to echo quickly what Deputy 
Commissioner said, coordination is one of the primary benefits 
of the STC program. Within which 13 local organizations led by 
the NYPD have acted together. This was demonstrated, of course, 
in the exercise this spring.
    I think there is good cooperation and coordination between 
the STC program and Federal entities. But I think as part of 
this surge concept we need to move forward and enhance that. 
That, of course, is one of the key elements of the next phase 
of the STC program.
    So, overall there is incredible amount of cooperation and 
coordination on the local and State level, and with the Federal 
level. But in terms of moving the program forward I think we 
need to put this together into one big surge concept where when 
there is a threat we are all ready to act.
    Ms. Clarke. So, having that construct in place already 
makes that surge capability more likely and certainly enables 
it to happen more fluidly. Would not you say?
    Mr. Stern. No question. You are completely correct. State 
and local authorities have to be the cornerstone of the surge 
because they are the only ones that have control on the ground 
with the capabilities and the manpower. So.
    Ms. Clarke. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Lungren. Thank you very much. Gentlelady yields back.
    I want to thank the witnesses for the valuable testimony, 
and the Members for their questions. The Members of the 
committee may have some additional questions for you. If we do, 
we will submit those to you in writing. We would ask that you 
would respond to these in writing.
    This hearing record will be held open for 10 days. Thank 
you, not only for your testimony, but for the service that you 
are rendering this Nation in your particular responsibilities.
    This subcommittee stands adjourned.
    [Whereupon, at 11:27 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

     Questions for Warren M. Stern From Chairman Daniel E. Lungren
              advanced spectroscopic portal (asp) program

    Question 1a. Given the news in your testimony that after 5 years, 
you will be ending the ASP program, can you please explain: How the 
Department came to this decision now?
    Answer. The ASP Program was established in 2004 to improve 
radiation and nuclear detection capabilities at our seaports and land 
border crossings and to address technical deficiencies in the existing 
radiation portal program. Over the years, the program has faced many 
operational and technical challenges. In February 2010, the then-Acting 
Director of DNDO briefed Congress that we were limiting consideration 
of certification of the ASP program to secondary scanning rather than 
primary scanning due to technical challenges and cost.
    Since then, there has been an important development. The most 
recent field validation revealed that the original design specification 
for ASP, jointly developed by CBP and DNDO in 2007, does not adequately 
reflect the operational needs in the field, particularly truck speeds 
for secondary inspection.
    Question 1b. Why will you be deploying 13 ASP systems?
    Answer. We will immediately begin to utilize a total of 13 existing 
ASP Low Rate Initial Production (LRIP) systems at select ports of entry 
to facilitate operational familiarity with the systems and gather data 
to support future acquisition programs.
    Question 1c. Where are the funds to deploy the 13 ASP systems 
coming from?
    Answer. DNDO will use Radiation Portal Monitor Program (RPMP) funds 
to deploy 9 of the 13 ASP LRIP units to ports of entry and to move the 
4 currently deployed units to new positions at ports of entry. 
Secretary Napolitano has directed DNDO and CBP to work with the Office 
of Management and Budget and the Appropriations subcommittees to make 
recommendations on redeploying the requested fiscal year 2012 
resources, prioritizing the procurement of next-generation handheld 
detection and identification systems.
    Question 1d. What is the anticipated time frame for initiating a 
future acquisition program of advanced radiological and nuclear 
detection systems to replace the ASP effort?
    Answer. We anticipate that a new acquisition program, incorporating 
revised operational requirements and the model-test-model approach 
recommended by the National Academy of Sciences to detector evaluation 
will be initiated based on the data collected from the ASP LRIP units.
    Question 2. It has been reported by GAO that energy windowing might 
improve the ability of the current PVT radiation portal monitors to 
detect certain nuclear materials and be more cost-effective than ASPs. 
Have you completed this energy windowing research and updated this 
capability of the currently deployed PVTs? If not, when will this be 
complete?
    Answer. We are developing methods for improving the current 
generation of polyvinyl toluene (PVT)-based portal monitors, including 
studies on energy windowing. We expect to evaluate these projects for 
PVT improvements and make a determination on deployments in fiscal year 
2012. Please note that PVT systems are equipped with current energy 
windowing algorithms that were upgraded previously. Additionally, 
improved material detection, while laudable, is not a satisfactory 
substitute for material identification, and PVT systems with energy 
windowing will not be capable of identifying nuclear material.

                           HELIUM-3 SHORTAGE

    Question 3a. I understand that DNDO is developing alternative 
neutron detection technologies to replace Helium-3 detectors in 
radiation portal monitors because of the shortage. But the validation 
process appears to be moving slowly.
    What is the status of this effort for near-term alternatives?
    Answer. Boron-lined tube alternative to 3He The Alternate Neutron 
Detector Module (ANDM) has been integrated into an RPM and the system 
was successfully installed at the Port of Oakland for field validation 
that was recently completed.
    DNDO also sponsored the Neutron Detector Replacement Program 
(NDRP). By working with several vendors simultaneously to find a 
commercial solution to an alternative technology to helium-3 based 
neutron detectors, DNDO is encouraging competition that we expect will 
lead to cost reductions, increased availability, and an acceleration of 
the replacement detectors to the commercial market. DNDO tested a total 
of 11 near-commercial-ready systems at the Nevada National Security 
Site this summer. (Please see table below.) Testing recently concluded 
and we are analyzing the results.
    Four of the 11 systems were provided in response to a DNDO-issued 
request for proposal.

                         MODULES TESTED AT NNSS
------------------------------------------------------------------------
                 Item No.
------------------------------------------------------------------------
1.........................................  \6\LiF/ZnS(Ag) Wavelength-
                                             Shifting Fibers
2.........................................  5"x60" LiF/ZnS(Ag)
                                             Wavelength-Shifting Fibers
3.........................................  Boron-lined copper tube
                                             proportional counters
                                             (straws)
4.........................................  PVT Wavelength-Shifting
                                             Light Guide
5.........................................  NeuSand Neutron Detector
                                             Module
6.........................................  Boron Tri-Fluoride (BF3)
                                             Design
7.........................................  n-Gamma PVT detector for
                                             both gamma-ray and neutron
                                             detection (test against
                                             neutron sources only)
8.........................................  Gas Avalanche Neutron
                                             Detector (GAND)
9.........................................  Neutron Reference Detection
                                             System (NRDS) (formerly
                                             referred to as the R3D)*
10........................................  HPGe spectrometer (ground
                                             truth)*
11........................................  Shielded Neutron Assay Probe
                                             (SNAP)*
------------------------------------------------------------------------
* Numbers 9, 10, and 11 are reference detectors (i.e., used to analyze)
  that were not tested but were utilized to provide measurement
  information.

    Question 3b. When do you plan to resume production and deployment 
of radiation portal monitors with the new technology?
    Answer. At the end of July 2011 DNDO completed its evaluation of 
the boron lined tube alternative to helium-3. Although the alternative 
passed all the functional requirements, the has demonstrated that there 
are other more cost-effective technologies available that should be 
considered before the final selection is made. Furthermore, by 
evaluating the other alternative technologies to replace the helium-3-
based neutron detectors, DNDO is encouraging competition in the 
commercial sector, reducing the overall cost, and improving 
manufacturability of the new technologies. The current plan is to 
complete the evaluation process against possible alternatives to 
helium-3 neutron detection and procure the new systems in the last 
fiscal quarter of fiscal year 2012.
    Question 4. What are your top three priorities with respect to 
implementation of the domestic GNDA?
    Answer. Priority No. 1: Domain awareness remains the No. 1 GNDA 
priority. The ability to detect, identify, and encounter conveyances 
and people in land, air, and sea pathways as they cross U.S. borders 
establishes the foundation for the prevention of radiological and 
nuclear threats being transported into the United States.
    Priority No. 2: The development of advanced technology that 
increases the ability of the United States to detect and identify 
radiological/nuclear threats, particularly the more difficult to detect 
nuclear weapons, component parts, or special nuclear materials.
    Priority No. 3: Reinforcing nuclear detection capabilities within 
the interior by increasing State and local nuclear detection programs 
and partnerships. State and local agencies serve as a force multiplier, 
significantly augmenting Federal nuclear detection capabilities within 
the U.S. interior. Efforts such as the Securing the Cities Initiative 
establish a baseline nuclear detection capability for State and local 
agencies, which can be mobilized in the event of actionable 
intelligence in addition to providing a deterrence effect in day-to-day 
operations.
    Question 5a. Although the DHS strategic plan for the Global Nuclear 
Detection Architecture issued in December 2010 is a very positive 
development, the plan is very short on the specific information that 
might give this committee some indication on whether acceptable 
progress in developing and deploying the architecture is being made.
    How do you measure progress and sufficiency in implementation of 
the GNDA?
    Answer. DNDO uses a number of mechanisms to measure progress and 
effectiveness of various elements of the GNDA. Examples include, but 
are not limited to, exercises, pilot-programs, stake-holder working 
groups, and red team assessments. In addition, DNDO, in partnership 
with the National Academy of Sciences (NAS), has started a project to 
develop metrics for the GNDA. With the help of the NAS, DNDO will be 
developing quantitative and qualitative metrics to measure 
effectiveness of the GNDA. These metrics will be incorporated into the 
GNDA Implementation Plan, currently in development and expected to be 
completed by the end of this calendar year.
    Question 5b. How would you rate overall progress in implementing 
the GNDA, as well as the performance of the various agencies within it?
    Answer. As reported in Section 6 of the GNDA Annual Report 2011, 
there have been substantial improvements to the GNDA in the past 5 
years. While quantitative ratings are difficult to generate, overall 
progress in deploying systems and establishing detection capabilities 
has been very good. Additionally, significant progress has been made in 
the past year on coordination and reporting.
    Question 6. How is the GNDA being used to inform program planning 
and prioritization?
    Answer. The GNDA is used throughout the solutions development 
process to prioritize and plan all DNDO programs. In particular, the 
GNDA is used in the first stage of the process to identify and 
prioritize needs in the GNDA that must be addressed by U.S. Government 
programs. From this analysis, DNDO prioritizes its programs to address 
the gaps within DNDO's area of responsibility. The GNDA is used later 
in the process to evaluate effectiveness of DNDO programs and to 
refocus resources to ensure DNDO continually targets its resources to 
the highest priority gaps.
    Question 7. Does DNDO provide any GNDA analysis support to other 
Federal, State, and local agencies to help inform planning and 
prioritization of their activities?
    Answer. DNDO's GNDA analysis, created with its the stakeholders, 
can serve as a useful data point to help inform planning and 
prioritization of activities, identify gaps and vulnerabilities, and 
offer potential solutions to address weaknesses.
    DNDO has also developed a Preventive Radiological and Nuclear 
Detection Capability Development Framework for use by State, local, and 
Tribal agencies in determining targeted levels of radiological and 
nuclear detection capability based on risk factors and increased 
likelihood of encountering illicit radiological and nuclear material. 
The CDF serves as a tool for users to determine targeted levels of 
assets and capabilities for nuclear detection.
    Additionally, DNDO's Joint Analysis Center examines radiological/
nuclear-related information from detectors, the intelligence community, 
law enforcement, and other sources to help develop, improve, and 
operate the GNDA. This information and related analyses are provided to 
stakeholders/decision makers in a timely manner to help them plan and 
prioritize their activities.
    Question 8. What mechanisms are in place to harmonize efforts among 
agencies involved in the GNDA so that their programs all work together 
toward the GNDA strategic goals?
    Answer. DNDO is in the process of formalizing the interagency 
governance structure leveraged for the development of the GNDA 
Strategic Plan and the Joint Interagency Annual Review. This 
coordinating body will include representatives from the DHS Nuclear 
Terrorism Working Group and Nuclear Terrorism Sub Group, as well as 
representatives from the interagency.
    Question 9a. The GNDA strategic plan identifies Federal agency 
roles and responsibilities within the GNDA. While State and local 
radiological and nuclear detection capabilities are key to the success 
of the GNDA, especially in the interior layer, the GNDA strategic plan 
does not attempt to assign roles or responsibilities to State or local 
officials.
    What input did DNDO gather from State and local agencies during the 
development of the GNDA strategic plan?
    Answer. DNDO did not expressly solicit input from State and local 
agencies for the GNDA strategic plan during its development; however, 
DNDO personnel have had extensive interaction with the State and local 
community over the past several years, and insights gleaned from those 
interactions significantly contributed to the development of the 
strategic plan.
    Question 9b. How are the Federal roles and responsibilities 
communicated to State and local participants?
    Answer. Since the release of the GNDA Strategic Plan in December 
2010, DNDO has shared the GNDA Strategic Plan with State and locals 
through outreach forums such as DNDO's State and Local Executive 
Steering Council, the State and Local Stakeholder Working Group 
meeting, and the Community of Interest website.
    Question 10a. While the GNDA strategic plan is complete, no plan 
yet exists to implement this plan.
    What are your plans to develop a domestic implementation plan?
    Answer. DNDO currently is coordinating development of a DHS 
Domestic Implementation Plan, which is expected to be completed by the 
end of calendar year 2011.
    Question 10b. Will this plan reflect only DHS roles and 
responsibilities or will it include other Federal, State, and local 
domestic efforts?
    Answer. The current plan will address DHS roles and 
responsibilities within the domestic portion of the GNDA and will 
address other Federal, State, and local efforts as related to DHS's 
programs and efforts.
    Question 10c. When will a Federal domestic implementation plan 
including all participating agencies be complete?
    Answer. The current plan is for DNDO to coordinate a Government-
wide domestic implementation plan immediately after completion of the 
DHS Domestic Implementation Plan. We expect that effort to begin in 
calendar year 2012.
    Question 11a. The Federal approach to the GNDA appears to have 
shifted from being highly technology-focused to a ``surge 
architecture,'' in which intelligence information and other factors 
play a more prominent role.
    What prompted this philosophical change?
    Answer. The change emphasizes the importance of having the ability 
to surge GNDA assets and capabilities in response to specific 
intelligence information. Much of the GNDA is designed to conduct 
steady-state (day-to-day) operations. However, the systems that 
comprise the GNDA also need the ability to adjust to information and 
intelligence. Given the physical limitations of detection and the 
current fiscal environment, in order to respond to warnings or advance 
information about threats we will need to operate in ways that we could 
not sustain on a day-to-day basis, and will need to surge capabilities, 
thus the term ``surge architecture.'' Ensuring that those plans, 
procedures, and capabilities exist and can be executed on short notice 
when needed is the thrust of this new focus. Notwithstanding, both 
steady-state and ``surge'' operations are vital to ensuring a holistic 
approach to combating the threat.
    Question 11b. Can you give a couple of examples of how the 
architecture would surge?
    Answer. Surge means to augment or introduce additional nuclear and 
radiological detection or search assets and capabilities into a 
geographic area or pathway for a limited time to address a potential 
threat or heightened vulnerability, increase deterrence, or respond to 
a credible threat.
    For example, if information is received that indicates a threat is 
inbound to a target, the components of the architecture can ``surge'' 
(through the augmentation or introduction of additional assets and 
capabilities) to a specific area to address the threat.
    A second example would be a major public event (NSSE or SEAR level) 
in which additional assets and capabilities can be introduced to a 
venue during the event.
    Question 11c. Has this conceptual shift altered existing programs 
in terms of deployments and budgets?
    Answer. The impact of surge to date has been more focused on 
ensuring that existing programs and systems have the ability to surge 
if needed, although future year budget requests include small shifts to 
focus on the development of additional ``surge-able'' Federal assets.
    Question 11d. Would DNDO's ``surge'' concept apply globally, as 
well as domestically?
    Answer. The concept would apply both globally and domestically.
    Question 12. DNDO appears to be making progress in developing 
standards for nuclear detection systems. How are these standards 
applied to equipment used at the Federal, State, and local level?
    Answer. DNDO has two primary standards programs: A program to 
support voluntary consensus standards development and a program to 
support the development of Government-unique technical capability 
standards.
    DNDO works with the National Institute of Standards and Technology 
(NIST) to support working groups including representation from vendors, 
users, customers, Government, and academia. The working groups identify 
standards requirements and develop consensus standards to satisfy those 
requirements. Existing consensus standards are also periodically 
reviewed to determine when updates are required. These identify the 
basic criteria for performance, functionality, and operability and are 
used across Government and the private sector for equipment development 
and design. These voluntary standards are applicable to equipment in 
use at the Federal, State, and local level.
    DNDO has also created the Graduated Radiological/Nuclear Detector 
Evaluation and Reporting (GRaDER<SUP>SM</SUP>) program to facilitate 
vendor-funded testing of commercial-off-the-shelf (nuclear detection 
and identification equipment, against consensus standards. DNDO is 
working with NIST National Voluntary Laboratory Accreditation Program 
to accredit laboratories to test vendor equipment against the consensus 
standards at any time, in addition to DNDO-funded testing. Test results 
may be made available, with vendor permission, to appropriate Federal, 
State, and local entities through the FEMA Responder Knowledge Base 
website. GRaDER<SUP>SM</SUP> tests equipment in a uniform way against 
the consensus standards and makes sure that results are presented in a 
standardized format.
    The Government unique standards program is threat-informed and 
supports the development of technical capability standards (TCS) for 
radiological and nuclear detection. The SAFE Port Act of 2006 directed 
the Secretary, through the Director of DNDO, in collaboration with 
NIST, to develop TCS for non-intrusive imaging and radiation detection 
equipment in the United States. The TCS Working Group is an interagency 
group also supported by several National laboratories. The TCS will be 
used to define testing requirements in addition to those contained in 
existing voluntary consensus standards. This additional testing will 
assist Federal, State, and local agencies in identifying the particular 
equipment best suited to their needs.
    Question 13a. Can you briefly explain progress being made to 
address gaps in the architecture that DHS and GAO have raised in the 
past? Specifically:
    Scanning railcars entering the U.S. from Mexico and Canada?
    Answer. DNDO is collaborating with CBP on the International Rail 
(IRAIL) program to identify solutions to address the operational and 
technical challenges of scanning railcars. Actions completed include:
  <bullet> Mission Needs Statement (MNS), signed by both CBP and DNDO.
  <bullet> Preliminary CONOPS (P-CONOPS)--Fiscal year 2011.
  <bullet> Capability Development Plan (CDP)--Fiscal year 2011. The CDP 
        sets the framework for an Analysis of Alternatives (AoA) which 
        leverages other work activities including the International 
        Rail Threat and Gap Study. The AoA, which is anticipated to 
        begin at the end of fiscal year 2011, and assess potential 
        scanning solutions and their associated tradeoffs.
  <bullet> Completed a study on International Rail threats and have 
        consolidated findings that will guide further program 
        implementation. DNDO is evaluating responses to a Request for 
        Information issued in 2010 to inform the AoA.
  <bullet> DNDO has also engaged in discussions with Second Line of 
        Defense (SLD) to leverage lessons learned from SLD's deployment 
        of radiation detectors in foreign countries.
    Question 13b. Scanning international air cargo? (e.g., Why can't 
DHS deploy the current PVT technology in combination with RIIDs to scan 
baggage and passengers at airports as you already do at land border 
crossings?)
    Answer. Fixed RPMs are currently installed at three airports to 
scan inbound air cargo. Since the fall of 2010, significant efforts 
have been made to characterize air port of entry (APOE) environments to 
support planning and evaluation activities, leading to an appropriate 
deployment of fixed, mobile, relocatable, and human portable systems to 
scan inbound international air cargo. DNDO is currently working closely 
with CBP to develop a mission needs statement, capability development 
plan, and preliminary-CONOPs based on findings from the APOE 
characterization efforts. The culmination of these efforts will inform 
the selection of radiological and nuclear detection systems at APOEs in 
the future.
    Regarding passengers and baggage, in early 2011 radiological and 
nuclear scanning systems for commercial passenger/baggage were 
commissioned at two pre-clearance sites. DNDO and CBP also completed a 
pilot program to determine operational feasibility of scanning 
international passengers/baggage at APOEs. DNDO is currently conducting 
a cost/benefit analysis to assist in determining the relative 
prioritization of international passenger/bag scanning. Depending on 
results of this cost/benefit analysis; DNDO will engage CBP on options 
for future capability development within that pathway.
    Question 13c. Scanning for radiation in the maritime environment? 
What has DHS learned from the pilot projects in San Diego and Puget 
Sound and how does the Department plan to act in response to this 
experience?
    Answer. The following are the key lessons learned from the West 
Coast Maritime Pilot (WCMP) effort in the San Diego and Puget Sound 
regions:
  <bullet> State, local, and Tribal maritime law enforcement and first 
        responder assets are a proven force multiplier and can greatly 
        increase the number of vessels screened during routine 
        operations. In Puget Sound, training and equipping State, 
        local, and Tribal maritime forces will potentially increase 
        nuclear detection screening substantially.
  <bullet> USCG leadership is key to establishing an effective regional 
        nuclear detection framework. During the exercise (highlighted 
        again during the STC maritime exercise) USCG provided the 
        command, control, and coordination when establishing security 
        zones.
  <bullet> The Area Maritime Security Committee (AMSC), led by the USCG 
        Captain of the port, provides an ideal framework for 
        establishing a regionally-based small vessel nuclear detection 
        program. In accordance with the Maritime Transportation 
        Security Act of 2002 and 33 CFR Part 103, the AMSC is required 
        to coordinate Federal, State, and local actions to enhance the 
        security of the Maritime Transportation System.
  <bullet> Most regions will likely require support from existing 
        State, local, and Tribal maritime agencies or from other 
        agencies outside of the region to establish a maritime nuclear 
        detection security zone.
  <bullet> Nuclear detection is a perishable skill, requiring frequent 
        refresher training and drill training to stay proficient.
  <bullet> The pilot was beneficial in other mission areas outside of 
        nuclear detection because it brought together agency 
        representatives on a regular basis, and gave them the 
        opportunity to interact one-on-one, and as small regional 
        groups. The benefits of collaboration were echoed by the 
        majority of agency representatives who participated in the 
        pilot.
    These lessons learned, CONOPs and SOPs, equipment selection guide, 
training guidance, and other supporting documentation produced for the 
WCMP are being consolidated and will form the basis for nuclear 
detection capabilities in other regions, significantly reducing the 
amount of time and resources needed to establish additional 
capabilities. DNDO's Maritime Program Assistance will work through the 
regional AMSCs to provide guidance in developing a regional approach to 
maritime nuclear detection and take advantage of existing coordination 
mechanisms already established in the maritime region.
    Question 14. During a site visit to New York several years ago, the 
committee was informed of the risks and security issues associated with 
radiological sources used in many of our major hospitals. Is DNDO still 
involved in addressing this security gap? If so, what progress has been 
made in this area? Can you explain the decision that was made to 
exclude source security activities from the GNDA?
    Answer. Source security is vitally important to radiological 
terrorism defense overall, and the notification of the loss of security 
for radioactive sources should serve as a trigger for the GNDA. 
However, DNDO has determined to focus on its core responsibility--which 
is to find nuclear and radiological material out of regulatory control 
rather than focus on efforts that are being covered by other USG 
partners' efforts. DNDO remains engaged on source security issued 
through interagency trilateral meetings with DOE, NRC, and DHS. The STC 
program in NYC includes a subcommittee focused on source security 
issues in the NYC region, as well.
    Question 15. Can you address the degree to which alarm resolution 
protocols are established and shared across Federal, State, and local 
levels to ensure that alarms lead to timely and effective response to 
include notification of appropriate authorities?
    Answer. DNDO established standardized alarm adjudication protocols 
for Federal alarms in the classified annex to NSPD 43/HSPD 14. 
Protocols for the National level reachback are communicated with 
Federal, State, and local mission partners, including triggers for 
escalation to higher levels. The annex also covers notifications when 
alarms reach certain levels. State and local protocols vary from State 
to State and among organizations within a State, but the Joint Analysis 
Center collects these various protocols to maintain awareness of how 
alarms progress through the S&L level into the Federal system.
    Question 16. According to the Homeland Security Act, DHS has 
operational control of the Nuclear Incident Response Team (NIRT) in 
connection with an actual or threatened WMD attack. The Act also makes 
DHS responsible for setting standards for the NIRT and certifying when 
those standards are met. How is this implemented?
    Answer. This question should be directed to the Federal Emergency 
Management Agency (FEMA), which is responsible for implementing the 
NIRT.
    Question 17. The FBI has emerged from the strategic planning 
process with more responsibility within the GNDA than it previously 
had. As the coordinator of the strategic planning process, can you 
describe how the FBI rose to this prominent role?
    Answer. DNDO is a National-level that includes personnel detailed 
from the FBI. Both NSPD-43/HSPD-14 and the SAFE Port Act of 2006 
articulate responsibilities for the Attorney General relative to the 
GNDA, and the FBI has played an active role in DNDO from the early days 
of its existence. Execution of the GNDA requires substantial law 
enforcement efforts--at Federal, State, local, and Tribal levels--so it 
is quite appropriate for the FBI to have such a prominent role. In 
addition, in the event of a nuclear or radiological incident, the FBI, 
as the lead Federal agency for criminal investigation, will need to 
work closely with others with preventive, GNDA responsibilities, 
providing intelligence and other information in order to prevent 
further attacks.
    Question 18a. According to DHS policy, the S&T Directorate is 
responsible for reviewing mission need statements, concept of 
operations documents, and operational requirements documents.
    Can you describe DNDO's interaction with S&T in this regard?
    Question 18b. Have these interactions changed over the last couple 
of years and how important are they for the effectiveness of the GNDA?
    Answer. The GNDA outlines the requirements needed to secure the 
borders of the United States whether the detection function is 
performed domestically or abroad. The S&T Directorate responsibility 
within the Department to review the mission need statement, concept of 
operations documents, and the operational requirements documents in 
order to ensure that appropriate testing and acquisition procedures are 
being applied to large acquisition progams (DHS Level 1 and Level 2 
programs). By having an independent organization like S&T review these 
documents and weigh in on the technical merit ensures good technical 
judgment and sound principals will be used in the field.
    Question 19. What lessons have been learned from STC implementation 
in the New York City region, specifically from the recent full-scale 
exercise in NY?
    Answer. DNDO has recorded lessons learned from the STC Program 
since its inception. These lessons have been incorporated into program 
guiding documents such as the funding opportunity announcements and in 
the draft program plan that will be provided to Congress later this 
year. These lessons are further documented in assessment reports 
produced by DNDO's Red Team and Net Assessment's Directorate and an 
external assessment of the program that have been previously provided 
to Congress.
    DNDO is currently finalizing an assessment report detailing lessons 
learned from the April 2011 STC full-scale exercise. Some initial 
observations include:
  <bullet> Full-scale exercise demonstrated nuclear detection readiness 
        by the vast majority of law enforcement personnel involved.
  <bullet> Most participants had equipment ready, were familiar with 
        its use (from training), and showed an acceptable level of 
        experience.
  <bullet> Although not an element of the STC CONOPs, the Emergency 
        Operations Center (EOC) facilitated the flow of information and 
        event visibility throughout the STC region. NYPD and the STC 
        CONOPs committee will incorporate an EOC into the CONOPs, based 
        upon the exercise.
  <bullet> The DNDO JAC was utilized for reachback support extensively 
        during the 5-day event.
    Question 20. Are you helping NY develop metrics by which progress 
of the STC initiative can be measured and to help determine when NY has 
achieved a level of capability that is sufficient and would require 
sustainment?
    Answer. DNDO is establishing measures to evaluate the degree to 
which STC meets program goals and objectives and is working with its 
STC partners to collect quarterly information to gauge progress toward 
meeting these program goals and objectives.
    DNDO has provided tools to assist State, local, and Tribal partners 
(including STC NYC partners) to help determine sufficient capability. 
The PRND Capabilities Development Framework (CDF) assists State, local, 
and Tribal jurisdictions to identify and develop targeted levels of 
radiological and nuclear detection capability based on risk factors and 
increased likelihood of encountering illicit radiological and nuclear 
material.
    DNDO will require the STC NYC partners to deliver a regional 
sustainment plan detailing each partner's plans to maintain equipment 
and personnel proficiency. The STC partners must be prepared to 
sustain/support radiological and nuclear detection capabilities beyond 
DNDO direct financial assistance.
    Question 21. This committee often hears about issues associated 
with sustaining and upgrading existing capabilities at the State and 
local level. How will DNDO support States and locals in this effort?
    Answer. STC provides funding to establish an initial nuclear 
detection capability in the STC region. This initial capability also 
includes funding to maintain equipment and maintain proficiency of 
operators during Phases I and II of implementation. The STC partners 
must be prepared to sustain/support radiological and nuclear detection 
capabilities beyond DNDO direct financial assistance.

       Questions for Carl Pavetto From Chairman Daniel E. Lungren

                 GLOBAL NUCLEAR DETECTION ARCHITECTURE

    Question 1. What are the DOE's three priorities with respect to 
implementation of the domestic GNDA?
    Answer. NNSA works closely with the Domestic Nuclear Detection 
Office (DNDO) in planning and implementation of the Global Nuclear 
Detection Architecture (GNDA). The Office of Emergency Operations 
operates primarily within the U.S. Target Vicinity and the U.S. Target 
Layers of the GNDA. The top priority for the Office of Emergency 
Operations is the development and implementation of the Interagency 
Domestic Radiological/Nuclear Search Plan (IADRNSP). This plan is a 
joint effort of the Federal Bureau of Investigation (FBI), the DNDO, 
and the Department of Defense (DoD). The plan was formally approved by 
the four partnering agencies and the White House National Security 
Staff on May 27, 2011. Implementation of the GNDA is the DOE's 
priority. Accordingly, the Office of Emergency Operations has the lead 
in developing the DOE-specific tactical guidelines for IADRNSP. This 
work is on-going.
    Question 2. Are you working on a domestic implementation plan with 
DNDO or separately?
    Answer. NNSA's Offices of Defense Nuclear Nonproliferation and 
Emergency Operations work together with DNDO (and other Federal 
agencies including FBI and DoD) to develop a Global Nuclear Detection 
Architecture (GNDA) implementation plan. This joint work is being 
conducted through the same Interagency Working Group that led to the 
development of the Joint Annual Interagency Review 2011, GNDA Strategic 
Plan 2010, and the Joint Annual Interagency Review 2011 GNDA Annual 
Report. DNDO has indicated that it will initially develop a DHS 
domestic implementation plan before proceeding to an interagency 
implementation plan. Although NNSA's Global Threat Reduction Initiative 
(GTRI) is not a component of the GNDA, GTRI has made a concerted effort 
to coordinate its implementation plans and progress with DNDO and 
others in the interagency.
    Question 3. What mechanisms do you have to coordinate or interact 
with DNDO with respect to the GNDA?
    Answer. NNSA's Offices of Defense Nuclear Nonproliferation and 
Emergency Operations participate in several working groups with DNDO on 
the Global Nuclear Detection Architecture (GNDA) and participated in 
the Policy Working Group that developed the GNDA Strategic Plan and 
produced the GNDA Joint Interagency Annual Report.
    The Office of Emergency Operations is a party to several 
interagency agreements that allow DNDO to leverage DOE's technical and 
operational resources. For example, the Office develops and carries out 
training and exercise programs in a collaborative effort with DNDO that 
ultimately leads to synergies in the Nation's response capabilities and 
capacity. Specifically, the Office of Emergency Operations supports 
DNDO's Securing the Cities Initiative (STC), provides training pursuant 
to the Preventative Radiological Nuclear Detection (PRND) training 
program, provides training under the TSA Visible Intermodal Protection 
and Response (VIPR) training program, and provides equipment and 
technical support to DNDO for its Mobile Detection Deployment Program 
(MDDP).
    The Office of Emergency Operations provides National Reachback for 
spectral analysis of radiological and nuclear material through two 
pathways--through radiological Triage whereby international, Federal, 
State, Tribal, and local officials can obtain spectral analysis at no 
cost, and, through providing technical assistance to DNDO's Secondary 
Reachback (SRB) program.
    DOE/NNSA and DNDO have been and will continue to cooperate on 
procedures for data submission, analysis, and reporting to provide 
consistent, high quality, responses and information to the National 
leadership in the event of a nuclear or radiological incident.
    NNSA's Second Line of Defense (SLD) program works with DNDO as part 
of the Border Monitoring Working Group to coordinate international 
cooperation on detection monitoring activities at borders related to 
nuclear security.
    SLD also participates in the equipment test and evaluation 
campaign, ITRAP+10, an effort managed by DNDO and the European 
Commission Joint Research Centre. Additionally, SLD participates in the 
development of guidance documents related to the prevention of global 
illicit trafficking organized by DNDO under the auspices of the Global 
Initiative to Combat Nuclear Terrorism (GICNT).
    NNSA's Global Threat Reduction Initiative (GTRI) participated in 
the Policy Working Group contributing to the GNDA Strategic Plan and 
Annual Report. Additional on-going coordination occurs through frequent 
meetings with the Department of Homeland Security (DHS), including 
DNDO, the Nuclear Regulatory Commission (NRC) and the Federal Bureau of 
Investigation (FBI). GTRI and DNDO also both participate in the 13-
agency Interagency Task Force on Radiation Source Protection and 
Security, which includes representation from the Organization of 
Agreement States and the Conference of Radiation Control Program 
Directors. Similarly, DNDO and GTRI participate as members of the 
Nuclear Government Coordinating Council (NGCC) that consists of Federal 
and State government entities with a role and responsibility in nuclear 
security as well as radiological emergency preparedness and response 
activities. Also, GTRI has shared its threat reduction studies with 
DNDO and has provided internationally recognized National laboratory 
subject matter experts to participate in DNDO's studies.
    NNSA, through its nuclear counterterrorism program, is working 
closely with DNDO, the National Institute of Standards and Technology 
(NIST), and the interagency to develop standards for the various types 
of detectors. These standards will include minimum detection levels and 
capabilities as well as testing and verification procedures for portal, 
backpack, mobile detector, and radioisotopic identification systems. 
The Office of Science and Technology Policy/National Science and 
Technology Council's Committee on Homeland and National Security 
sponsors a subcommittee on standards, the goal of which is to develop 
National consensus on the standards and a National test and 
infrastructure for Chemical Biological Radiation Nuclear Explosive 
(CBRNE) technologies.
    NNSA also supports DNDO's mandate regarding the GNDA by providing 
an employee as a detailee to DNDO.
    All of these efforts are in addition to the interagency work on the 
GNDA Strategic Plan 2010 which included representatives from a number 
of DOE/NNSA organizations and the Joint Annual Interagency Review 2011 
to which NNSA fully contributes.
    Question 4a. The GNDA strategic goals may differ from the goals of 
specific NNSA programs. As a result, GNDA priorities, viewed separately 
from other NNSA priorities may suggest increased or decreased 
investment in existing programs.
    How does NNSA consider the GNDA strategic goals when prioritizing 
NNSA programs and developing budgets?
    Answer. The GNDA strategic goals are accounted for in NNSA's 
planning, programming, budgeting, and evaluation (PPBE) process. 
Integral to this process is the creation of an integrated priority list 
(IPL), which is a successful mechanism for program managers to conduct 
internal trade-off analyses within a defined budget target. NNSA has an 
exemplary track record of supporting interagency needs that can be met 
through its programs and the array of capabilities available throughout 
its nuclear security enterprise.
    Question 4b. How does NNSA evaluate programmatic progress or 
success in context of the GNDA?
    Answer. Most work undertaken in partnership with, or on behalf of, 
an interagency partner is accompanied by a memorandum of understanding 
and a program plan. Program plans often include performance metrics and 
key milestones against which performance is measured.
    Question 5a. The Implementing Recommendations of the 9/11 
Commission Act of 2007 (Pub. L. 110-53) requires that each agency in 
the GNDA annually assess its participation in and implementation of the 
GNDA and jointly report to Congress.
    What have been the results of NNSA's assessments?
    Question 5b. What steps has NNSA taken to build upon these 
assessments in order to help inform NNSA's future investments?
    Answer. NNSA's role is limited to submitting input to DNDO for the 
use in preparing the GNDA joint interagency annual report. NNSA and 
DNDO collaboratively perform planning reviews, program assessments, and 
prepare plans. As a result of this cooperation between the two 
agencies, NNSA and DNDO are able to jointly identify priorities.
    Question 6. NNSA programs deploy a variety of radiation detection 
technologies such as backpacks, mobile detectors, and radio-isotope 
identifiers. These programs are all included in the GNDA. When 
considering technologies for use in the GNDA, do you coordinate with 
DNDO and other agencies acquiring similar technologies or requirements? 
Do you use the same design basis threat standards?
    Answer. NNSA's Office of Emergency Operations and DNDO have worked 
and continue to work in a cooperative effort. Together, these two 
organizations have established a Technology Integration Committee that, 
among other things, evaluates proposals for radiation detection 
technological enhancements and conducts joint testing of equipment.
    The detection technologies used by the interagency are dictated by 
the physics of radiation interactions with matter. Further improvements 
to radiation detection require scientific and engineering developments 
that are on the forefront of our understanding of the underlying 
physics of radiation detection and materials science. Improvements to 
currently available technology are necessitated by the details of the 
physical implementation and the concept of operations of the teams 
involved. These details can differ significantly for these teams and 
can define the optimal technologies used. Government research programs 
for radiation detection are coordinated through the Office of Science 
and Technology Policy (OSTP), which sponsors the Nuclear Defense 
Research and Development subcommittee of the National Science and 
Technology Council.
    NNSA routinely exchanges technical threat information with DNDO and 
the interagency. It does so in order to maximize the potential for 
radiation detection systems to detect existing and potential nuclear 
devices while maintaining the high levels of security that this 
extremely sensitive threat information requires. These potential 
threats include the full range of both improvised nuclear devices and 
State-built nuclear weapons. Both DNDO and the NNSA use this 
information to inform the standards for designing nuclear threat 
detection systems.
    NNSA's Second Line of Defense (SLD) program coordinates and 
exchanges technical and operational information concerning nuclear 
security detection monitoring equipment with DNDO through a variety of 
formal and informal mechanisms. As part of this coordination, SLD 
experts have served as key participants in the Technical Capability 
Standards Working Group, created as a result of the requirements of the 
Safe Port Act of 2006, to publish technical capability standards for 
radiation detection equipment in the United States. The initial result, 
Technical Capability Standard for Hand-held Instruments Used for the 
Detection and Identification of Radionuclides is near completion and 
will provide an agreed-upon standard for U.S. deployed equipment. SLD 
utilizes research and deployment experience from multiple agencies, 
including other components of the Department of Energy, as well as the 
Departments of Homeland Security and Defense, determine what types of 
equipment to deploy. For example, the research and testing of handheld 
radiation detection equipment conducted by DoD and DHS have been 
reviewed by SLD in order to determine what type of handheld is most 
suited to carrying out its international mission.

     Questions for Richard Daddario From Chairman Daniel E. Lungren

    Question 1. What are a few key lessons that have been learned from 
STC implementation in the New York City region, specifically from the 
recent full-scale exercise?
    Answer. The STC exercise showed that the STC Concept of Operations 
(CONOPS) is an effective tool in the detection and interdiction of 
Radiological or Nuclear materials that may be a threat to the NYC 
region; it provides an effective framework for deployments and is 
reviewed periodically to ensure that it continues to effectively 
address evolving strategies and current terrorist tactics and threats. 
During the recent full-scale exercise (FSE), it enabled the STC 
partners to deploy in a coordinated manner utilizing equipment 
purchased through the STC program to address a notional threat. 
However, a few key lessons have been learned from the overall 
implementation of the STC program and as a result of the recent FSE.
  <bullet> During the planning stages of the FSE it was determined that 
        an Emergency Operations Center (EOC) would be needed to manage 
        exercise activities. This EOC concept was not part of the 
        original CONOPS; therefore, an EOC was setup for the exercise 
        and will now formally be incorporated into a revised CONOPS.
    <bullet> The STC partners had representatives present in the EOC 
            for the duration of the exercise. Having tactical and 
            strategic planners, intelligence analysts, and 
            counterterrorism and radiological subject-matter experts 
            present in the EOC was effective and resulted in an 
            efficient, coordinated decision-making process.
        <bullet> This in turn, led to the successful interdiction of 
            all radiological materials, including many which were not 
            part of the exercise, such as real-life interdictions of 
            medical and industrial sources of radiological materials.
    <bullet> It was also determined that having a Health Department 
            representative in attendance provided the incident 
            commander with information needed to make important 
            decisions regarding deployment strategies.
  <bullet> During the exercise STC partners were able to staff 
        checkpoints and chokepoints with properly trained operators and 
        supervisory personnel.
  <bullet> The STC NYC Region does not have a standard set of 
        information management systems to facilitate and improve 
        information sharing across the region and with the Joint 
        Analysis Center down in Washington, DC. Solutions to this are 
        being investigated by the STC information sharing working group 
        in conjunction with the Domestic Nuclear Detection Office 
        (DNDO). However, the NYPD has made great strides in networking 
        the mobile radiation detection equipment purchased with STC 
        program funds so that the data will be viewable in real-time at 
        the Lower Manhattan Security Coordination Center. At the 
        Center, officers monitor real-time events from equipment in the 
        field that has been installed on vans, boats, and other mobile 
        detection platforms. Continuing this effort for the region is 
        of utmost importance to the overall effectiveness of this 
        initiative.
  <bullet> During the exercise there were isolated incidents of 
        equipment failure or operators not sufficiently proficient in 
        their use.
    <bullet> This demonstrates the importance of maintenance and 
            calibration of equipment as well as the need for scheduled 
            refresher training.
    <bullet> Drills and smaller-scale exercises will allow the STC 
            region to continually evaluate the usefulness of equipment 
            and allow operators to continue to hone their skills.
    Question 2. This committee often hears about issues associated with 
sustaining and upgrading existing capabilities at the State and local 
level. Can you please describe some of the issues you face with 
sustaining the radiological and nuclear detection capabilities being 
developed in NYC?
    Answer. Sustaining radiological and nuclear detection capabilities 
at the local and regional level faces many challenges, both unique to 
NYC as well as with a more broad application across the region.
    Equipment capabilities:
  <bullet> The NYPD and the STC partners must continue to increase the 
        numbers of officers who carry personal radiation detectors. 
        This will greatly enhance the ability to interdict materials 
        during either routine patrol activity or targeted deployments.
  <bullet> Having to take detectors off-line for calibration or 
        maintenance is time-consuming and diminishes the overall 
        detection capability of the region. Having a substantial 
        reserve cache would minimize the impact of properly maintaining 
        the detection equipment.
  <bullet> It has been difficult to calibrate and repair older 
        equipment that was purchased without extended warranties. 
        Identifying funding sources has been difficult and time-
        consuming. DNDO determined that older ``legacy'' equipment 
        could not be maintained with STC funding; therefore, the 
        Department and the regional partners had to seek out alternate 
        sources of funding in the effort of putting a contract in place 
        to repair and maintain this older equipment.
  <bullet> Additionally, some of the radiological detection equipment 
        is several years old and may be near the end of its effective 
        life cycle. Plans need to be put in place not only to increase 
        the overall number of detectors but to replace older equipment 
        that becomes obsolete, just to maintain current detection 
        levels.
    <bullet> Some of the older devices may require relatively 
            inexpensive repairs. The current guidance seems to 
            encourage the purchase of new units; however, the repair of 
            devices currently in inventory may be a more cost-effective 
            way of maintaining detection capability throughout the 
            region.
    <bullet> Manufacturers of radiological detection equipment often 
            charge a substantial fee for diagnosing the problem when a 
            device is not properly functioning. This high cost makes it 
            difficult for agencies to determine if the malfunction is a 
            minor fix or an expensive repair.
  <bullet> Finally, radiological detection technology is constantly 
        evolving and improving. Emerging technologies in this area 
        should be explored, and, when appropriate, older devices should 
        be replaced with new, improved devices. These technologies will 
        enhance our land, air, and sea detection capabilities.
    Personnel capabilities:
  <bullet> Proficiency in the use of radiological detection equipment 
        is a perishable skill; operators need to maintain their skills 
        in an effort to detect and interdict these materials. Refresher 
        training, drills, and exercises are effective ways to hone 
        these skills. (Training)
  <bullet> In order to allow members to participate in these training 
        efforts it is often required to backfill members to maintain 
        minimum staffing levels throughout the region so that normal 
        operating levels do not suffer as a result. (Overtime/backfill)
  <bullet> Having the capability to detect and interdict illicit 
        materials is not enough. Operational deployments are essential 
        to protect New York City and the region from an attack. Funding 
        to support these deployments is required as an efficient way to 
        maintain proficiency and to increase the possibility of 
        detecting illicit materials. Funding of operational deployments 
        is currently not authorized. (Deployments)
    As the STC program expands to other areas of the country, funding 
must be continued for the New York City region to ensure that the 
detection capabilities already established remain in place. Continued 
funding for the STC program has a broad appeal across the NYC region 
due to the recent economic stresses now facing most local and State 
governments. Without continued Federal funding, it will be extremely 
difficult to sustain the current level of operational capabilities and 
impossible to continue expanding the program to reach the full security 
potential of the initiative.
        Questions for Mark Perez From Chairman Daniel E. Lungren
    Question 1a. While a nuclear or radiological attack is a high-
consequence event, it is also on the lower end of probability if you 
consider the more conventional threats we face day-to-day. Maintaining 
preparedness for such an event can be a challenge given the large 
number of more likely threats.
    At the State and local level, has it been difficult to build 
capabilities within the interior layer given competing priorities?
    Answer.
    Question 1b. How have budget constraints affected your approach to 
countering nuclear and radiological threats and your contribution to 
the GNDA?
    Answer.
    Question 1c. If Federal support for such efforts was reduced, would 
this capability be maintained?
    Answer.
    Question 1d. What priority do you place on maintaining a 
radiological or nuclear detection capability?
    Answer.

     Questions for David C. Maurer From Chairman Daniel E. Lungren

    Question 1. GAO has previously testified that efforts to develop 
the ASP distracted DNDO from developing a GNDA strategic plan. What do 
you think of DNDO's current plan to end the ASP program but deploy 13 
of the existing ASP systems to gain more experience with them? Do you 
think this will continue to distract DNDO from activities that should 
be higher priorities or will this be helpful to future efforts to 
procure advanced technology?
    Answer. In our view, deploying the existing 13 ASPs to various CBP 
field locations is likely a good thing because it is small enough of an 
effort to not distract DNDO from higher priorities of its mission, and 
it gives a few CBP ports an additional resource that may be useful in 
adjudicating radiation alarms. In addition, this limited deployment 
will give CBP more ``hands-on'' experience in operating and maintaining 
the ASP which could prove valuable should the ASP technology improve 
enough to be considered for future deployments.
    Question 2a. A GAO Report issued last month discussed DHS policies 
and procedures regarding technology development and acquisition.
    To your knowledge, how are technology needs and requirements across 
the GNDA harmonized?
    Answer. In July 2008, we testified that DNDO had developed an 
initial GNDA after coordinating with, among others, the Department of 
Defense, Department of Energy, and the Department of State, to identify 
74 Federal programs that combat smuggling of nuclear or radiological 
material. Many of these programs predate the establishment of DNDO. 
These programs cover all of the layers of detection, including securing 
special nuclear and radiological materials at their source in foreign 
countries and in the United States as well as detecting these 
materials. DNDO has also collaborated with these and other Federal 
agencies to: (1) Identify gaps in the initial architecture, such as 
land borders between ports of entry, small maritime vessels, and 
international general aviation, and (2) develop programs to address 
these gaps. To address the gaps identified in the domestic portions of 
the architecture, DNDO worked closely with:
  <bullet> CBP in studying the feasibility of equipping border patrol 
        agents with portable radiological and nuclear detection 
        equipment along the U.S. border.
  <bullet> Coast Guard to develop and expand the coverage of 
        radiological and nuclear detection capabilities that can be 
        specifically applied in a maritime environment.
  <bullet> CBP, the Transportation Security Administration, and other 
        agencies to develop nuclear detection capabilities that can be 
        applied in aviation.\1\
---------------------------------------------------------------------------
    \1\ GAO, Nuclear Detection: Preliminary Observations on the 
Domestic Nuclear Detection Office's Efforts to Develop a Global Nuclear 
Detection Architecture, GAO-08-999T (Washington, DC: Jul. 16, 2008).
---------------------------------------------------------------------------
    Question 2b. What mechanisms are in place to reduce duplication and 
waste in procuring and deploying technologies throughout the GNDA?
    Answer. Our work over the past several years has consistently 
pointed to the challenges DNDO has faced in developing a GNDA while 
also acknowledging the progress made by DNDO and DHS related to GNDA. 
For example:
  <bullet> In January 2009, we recommended that DHS develop a plan for 
        the domestic part of the global strategy and engage with other 
        stakeholders to develop broader strategic efforts to combat 
        nuclear smuggling. In December 2010, DNDO issued a strategic 
        plan for the GNDA. The strategic plan establishes a broad 
        vision for the GNDA, identifies cross-cutting issues, defines 
        several objectives, and assigns mission roles and 
        responsibilities to the various Federal entities that 
        contribute to the GNDA. For example, the DOE has the lead for 
        several aspects of enhancing international capabilities for 
        detecting nuclear materials abroad, DHS has the lead for 
        detecting nuclear materials as they cross the border into the 
        United States, and the Nuclear Regulatory Commission has the 
        lead on reporting and sharing information on lost or stolen 
        domestic radiological material.
  <bullet> In addition, earlier this year, DNDO released the Global 
        Nuclear Detection Architecture Joint Annual Interagency Review 
        2011. This review describes the current status of GNDA and 
        includes information about the multiple Federal programs that 
        collectively seek to prevent nuclear terrorism in the United 
        States. However, neither the strategic plan nor the 2011 
        interagency review identifies funding needed to achieve the 
        strategic plan's objectives nor establishes monitoring 
        mechanisms to determine programmatic progress and identify 
        needed improvements--key elements of a strategic plan that we 
        previously identified in our recommendations. Furthermore, 
        while the plan and the 2011 interagency review discuss 
        previously identified gaps in the domestic portion of the 
        architecture, neither discusses strategies, priorities, time 
        frames, nor costs for addressing these gaps.\2\
---------------------------------------------------------------------------
    \2\ GAO, Combating Nuclear Smuggling: DHS has Developed a Strategic 
Plan for its Global Nuclear Detection Architecture, but Gaps Remain, 
GAO-11-869T (Washington, DC: Jul. 26, 2011).
---------------------------------------------------------------------------
  <bullet> DHS continues to develop its acquisition oversight function 
        and has implemented a revised acquisition management directive 
        that includes more detailed guidance for programs to use when 
        informing component and Departmental decisionmaking. The 
        senior-level Acquisition Review Board (ARB) has met more 
        frequently and has provided programs acquisition decision 
        memorandums to document the ARB discussion and outline action 
        items to improve program performance.\3\ For example, in April 
        2011, the ARB met to discuss the Advanced Spectroscopic Portal 
        (ASP) program, a part of the GNDA, progress in meeting its 
        programmatic objectives. The ARB determined that the ASP 
        program faced difficulties with meeting its requirements and 
        performance objectives. As a result, the ARB instructed DNDO 
        and CBP to refine its requirements, develop an operational test 
        strategy, prepare an acquisition strategy, and develop a 
        briefing memo to the DHS Secretary on ways to move forward with 
        the program.\4\ In July 2011, the director of DNDO testified 
        before Congress that DHS would not continue the ASP program.
---------------------------------------------------------------------------
    \3\ GAO, Department of Homeland Security: Assessments of Selected 
Complex Acquisitions, GAO-10-588SP (Washington, DC: June 30, 2010).
    \4\ DHS Acquisition Decision Memorandum, June 2011.
---------------------------------------------------------------------------

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
